Tennessee Valley Region                                                                                                                                                                                                                                                                                        Table of Contents
                                                                                                                                                                                                                                                                                                                Message from the Inspector General .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5
                                                                                                                                                                                                                                                                                               W .       V .
                                                                                                                                                                                                                                                                                                                Executive Summary.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 6
                                                       I   L       .
                                                                                                                                                                         K    E       N T U C K                     Y                                                                                           Office of the Inspector General .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 10
                                                                                                                    Paradise
                                                                                                                    Fossil Plant
                                                      Shawnee
                                                    Fossil Plant                                                                                                                                                                                             V    I    R    G     I    N   I A
                                                                               Kentucky
M   I   S       S       O    U    R    I                  Marshall            Dam & Lock
                                                Combustion Turbine
                                                                                                                                                                                                                                                                                           Clear Creek
                                                                                                                                                                                                                                                                                              Beaver Creek      Special Feature.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 16
                                                                                                                                                                                                                                                             Ft. Patrick Henry     South
                                                                                                                                                                                                                                                                                  Holston
                                                                                                                                                                                                                                                                           Boone
                                                                                                                                                                                                                                                                                 Wilbur
                                                                                                                                                                                                          Doakes              John Sevier Fossil Plant

A   R   .                                                 Gleason
                                                                                     Cumberland
                                                                                     Fossil Plant                                        Gallatin Fossil Plant
                                                                                                                                                                                                           Creek                              & Dam
                                                                                                                                                                                                                                                                                 Watauga                        Noteworthy Undertakings.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 19
                                                      Combustion Turbine                                                                 &Combustion Turbine                                                                     Cherokee
                                                                                                                                                                                                                     Norris

                                                                                                                                                                                                               Bull Run                       Nolichucky
                                                                                           Johnsonville                                                                                                        Fossil Plant         Douglas
                                                                                           Fossil Plant &
                                                                                           Combustion Turbine                                                                         Kingston
                                                                                                                                                                                       Fossil
                                                                                                                                                                                        Plant
                                                                                                                                                                                                           Melton
                                                                                                                                                                                                           Hill Lock
                                                                                                                                                                                                                                                                                                                Audits.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 22
                                                                                                                                                                                                           & Dam

                                                           T        Cedar E                  N                  N              E               S   Great Falls   S                E                  E        Ft. Loudoun Dam & Lock
                                                                Pin Oak                                                                                                                                      Tellico                                             N O R T H
                                    Lagoon Creek                                  Redbud
                                  Combustion Turbine           Beech                                                                                                                                                                                          C A R O L I N                      A
                                                                       Pine
                                                                                 Dogwood
                                                                             Lost Creek
                                                                                                                                                                        Watts Bar
                                                                                                                                                                     Nuclear Plant
                                                                                                                                                                                          Watts Bar
                                                                                                                                                                                          Dam & Lock                                                                                                            Inspections.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 28
                                                                        Sycamore
                                                                                                                                   Normandy                                                                              Fontana



                                                                                                                            Tims Ford Dam
                                                                                                                                                   Sequoyah Nuclear Plant

                                                                                                                                               Chickamauga Dam & Lock              Ocoee #1
                                                                                                                                                                                              Apalachia
                                                                                                                                                                                              Ocoee #2
                                                                                                                                                                                                                  Hiwassee
                                                                                                                                                                                                                        Chatuge
                                                                                                                                                                                                                                                                                                                Investigations.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 32
                        Allen Fossil Plant,                                                                                                                                                                                                                                S O U T H
                        Combustion Turbines, & Methane Facility                 Pickwick Landing Dam & Lock                              Nickajack Dam & Lock

                                                                                  Colbert Fossil                                                                 Raccoon
                                                                                                                                                                                               Ocoee #3            Nottely                                              C A R O L I N                     A
                                                                                     Plant &                                                                     Mountain
                                                                                   Combustion                                                                    Pumped                                  Blue Ridge
                                                                                     Turbine
                                                                                                          Wheeler Dam
                                                                                                          & Lock
                                                                                                      Wilson
                                                                                                                  Browns Ferry
                                                                                                                  Nuclear Plant
                                                                                                                                             Widows Creek
                                                                                                                                              Fossil Plant
                                                                                                                                                                 Storage
                                                                                                                                                                                                                                                                                                                Legislation and Regulations .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 36
                                                                                                       Dam
                                                                                                      & Lock
                                                                                       Cedar Creek
                                                                                        Little Bear Creek                 Guntersville
                                                                                                                          Dam & Lock                                                                                                                                  LEGEND
                                                                                    Bear Creek
                                                                                                                                                                                                                                                         State Line
                                                                                                                                                                                                                                                                                                                Appendices.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 38
                                                                                    Upper Bear Creek
                                                                                                                                                                               G      E   O      R       G    I    A                                     Water
            M       I    S    S    I   S   S    I     P    P       I
                                                                                                                                                                                                                                                         Power Service Area
                                                                                                                                                                                                                                                         TVA Watershed
                                                                                                                                                                                                                                                                                                                Appendix 1 – Index of Reporting Requirements
                                                        Caledonia
                                                Combustion Turbine
                                                                                                            A   L   A   B     A    M     A                                                                                                               TVA Hydroelectric Dam                                  Under the Inspector General Act .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 39
                                                                                                                                                                                                                                                         TVA Non-Power Dam
                                                                                                                                                                                                                                                         TVA Coal-Fired Plant
                                                                                                                                                                                                                                                         TVA Nuclear Plant                                      Appendix 2 – Audit and Inspection Reports Issued.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 40
                                                                                                                                                                                                                                                         TVA Combustion Turbine Plant
                                                                                                                                                                                                                                                         TVA Pumped-Storage Plant

                                                    Kemper
                                                                                                                                                                                                                                                         TVA Customer Service Office                            Appendix 3 – Audit and Inspection Reports Issued with Questioned
                                                Combustion Turbine                                                                                                                                                                                       TVA Economic Development Office
                                                                                                                                                                                                                                                         Green Power Switch® Solar Site                         Costs and Recommendations for Better Use of Funds.  .  .  .  .  .  .  .  .  .  .  .  .  . 41
                                                                                                                                                                                                                                                         Green Power Switch® Wind Site
                                                                                                                                                                                                                                                         Green Power Switch® Methane Site
                                                                                                                                                                                                                                                                                                                Appendix 4 – Investigative Referrals and Prosecutive Results.  .  .  .  .  .  .  .  .  . 42
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                             t
                                                                                                                                                                                                                                                         0            20          40        60 mi.
                                                                                                                                                                                                                                          June 2006                                                  N



                                                                                                                                                                                                                                                                                                                Appendix 5 – Audit and Inspection Reports                                                                                                                                    v
                                                                                                                                                                                                                                                                                                                with Corrective Actions Pending.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 43                                                            a

                                                                                                                                                                                                                                                                                                                Appendix 6 – Highlights.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 44                                                        3
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                             o
                                                                                                                                                                                                                                                                                                                Glossary, Abbreviations, and Acronyms.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 45
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                             i
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                             g




                                                                                                                                                                                                                                                                                                                                                                                                                       S e m i a n n u a l R e p o r t   | C h a l l e n g i n g T i m e s
                                                                                           Message From The Inspector General
                                                                                           media to the Exxon Valdez spill) pre-        Our reports provide an independent
                                                                                           cipitated intense Congressional scru-        perspective of TVA operations in key
                                                                                           tiny at two public hearings as well as a     strategic areas. We issued the customer
                                                                                           barrage of media coverage. Congress          relations report during the prior OIG
                                                                                           has vowed to provide more oversight          semiannual period, and the remaining
                                                                                           of TVA and the ensuing litigation from       reports will be issued during the next
                                                                                           residents of Roane County, Tennessee,        semiannual period.
                                                                                           promises to keep TVA in the spotlight
                                                                                                                                        The work of the OIG for this report-
                                                                                           for years to come. As one TVA execu-
                                                                                                                                        ing period spans a broad gamut of risk
                                                                                           tive aptly put it…“this event—painful
                                                                                                                                        areas for TVA. Our goal is to help TVA
                                                                                           and uncharacteristic as it may be—is
                                                                                                                                        reduce those risks as they address the
                                                                                           now part of our history as well” despite
                                                                                                                                        gaps that we identify. TVA manage-
                                                 This report to Congress and the TVA       the laudable contributions of TVA to
                                                                                                                                        ment’s response has been positive and
                                                 Board comes at a time of historic         the Valley and the Nation in years past.
                                                                                                                                        commitments have been made to make
                                                 challenges for TVA. We chronicle          These events with significant adverse        the necessary corrections.
                                                 some of those recent challenges           economic consequences for TVA are
                                                                                                                                        Finally, we are grateful that our work is
                                                 in the “Special Feature” on page          compounded by an economy that has
                                                                                                                                        understood and fully supported by the
                                                 16 of our report. In many ways, a         driven down revenues for TVA due to
                                                                                                                                        TVA Board which enables us to fulfill
                                                 “perfect storm” has developed that        business constrictions across the Ten-
                                                                                                                                        our mission.
                                                 has changed the landscape of TVA          nessee Valley region. TVA’s rates to its
                                                 forever. As we note, a federal district   wholesale customers have fluctuated
                                                 court in Asheville, North Carolina,       with the sharp increases drawing fire
>> C h a l l e n g i n g T i m e s               has ruled that a number of TVA’s fos-     from retail residential customers while
                                                 sil fuel plants have created a “pub-      reductions in rates by TVA receive scant
                                                 lic nuisance” that must be abated         attention. Thus, TVA finds itself seem-      Richard W. Moore
                                                 in short order. This has significant      ingly embattled on almost every front.       Inspector General                               t
                                                 implications for the composition of                                                                                                    v
    Message                          f rom the
                                                 TVA’s energy fleet and requires re-
                                                                                           We raise the question in the Special
                                                                                                                                                                                        a
                                                                                           Feature article, “How is TVA doing?”
                                                 thinking how TVA will meet the de-
    Inspector                                    mand for power across the Valley.
                                                                                           While this question is of particular rele-                                                   5
                                                                                           vance today, the OIG started posing the
                                                 Perhaps the darkest of clouds for TVA                                                                                                  o
    General                                      came on the night of December 22,
                                                                                           question before TVA was beset with the
                                                                                                                                                                                        i
                                                                                           current crisis. We had previously com-
                                                 2008, when a coal ash pond at Kings-      mitted to doing assessments that would                                                       g
                                                 ton, Tennessee, spilled five million      relay to TVA’s stakeholders how TVA
                                                 cubic yards of water and coal fly ash     was doing with regard to finances, cus-
                                                 onto approximately 300 acres including    tomer relations, environmental stew-
                                                 about 8 acres of privately owned prop-    ardship, and operational effectiveness.
                                                 erty. This incident (compared in the


                                                                                                                  S e m i a n n u a l R e p o r t   | C h a l l e n g i n g T i m e s
                                     Representative Audits and Inspections
                                     In these challenging times for indi-       equipment placed in surplus and sub-       from business with the federal govern-
                                     viduals and businesses, government         sequently disposed of; (3) packing and     ment; (2) could improve its process by
                                     corporations such as the Tennessee         labeling monitors in surplus to ensure     including certain requirements from
                                     Valley Authority (TVA) are not im-         disposals comply with environmental        the Federal Acquisition Regulations in
                                     mune to the wide-spread liquidity          requirements; (4) certifying hard drives   its procedures; and (3) lacked a formal
                                     and credit pressures of the troubled       on resold, donated, or redistributed       process for identifying parties that have
                                     economy.  It is times such as these        equipment are wiped; and (5) ensuring      been found unsatisfactory by TVA and
                                     that greater need for and reliance on      current procedures are followed.           preventing them from transacting fu-
                                     the Office of the Inspector General                                                   ture business with TVA.
                                     (OIG) to ferret out waste, fraud, and      Internal Control                           Audits of nearly $350 million of con-
                                     abuse is sought by the company’s           Reviews                                    tract expenditures identified potential
                                     stakeholders.  This report describes       The OIG continued its support of TVA
                                                                                                                           overbillings and waste of up to approx-
                                     the initiatives of our office in these     initiatives to comply with Section 404
                                                                                                                           imately $1.2 million. The questioned
                                     regards: a brief synopsis of the more      of the Sarbanes-Oxley Act of 2002
                                                                                                                           costs were discovered during contract
                                     significant audits, inspections, and       (SOX). During the period, business
                                                                                                                           compliance audits of the TVA medical
                                     investigations performed during this       process and information system con-
                                                                                                                           benefits plan administrator and ven-
                                     semiannual period follows.                 trols were tested again for operational
                                                                                                                           dors providing nuclear engineering and
                                                                                effectiveness. This included follow-up
                                                                                                                           asbestos abatement services to TVA.
                                     IT Audits                                  testing of controls to provide TVA
                                                                                                                           TVA is taking or has taken action to
                                     Our audit of general computing con-        management assurance of continued
                                                                                                                           recover these dollars.
                                     trols at a vendor which hosts a TVA        effectiveness or successful remediation
                                     system significant to TVA financial        of controls where initial tests showed
                                                                                                                           Monitoring of External
>> C h a l l e n g i n g T i m e s
                                     reporting found the vendor needs to:       improvements were needed.
                                                                                                                           Auditors’ Work
                                     (1) strengthen account management
                                                                                                                           The OIG is responsible for all audits
                                     procedures to ensure accountability;       Contract Audits                            of TVA, whether performed by federal
                                     (2) develop a standard configuration       TVA spends billions of dollars annu-
                                                                                                                           or nonfederal auditors, to assure the            t
                                     baseline for all systems on the produc-    ally for goods and services provided
                                                                                                                           work is performed in accordance with             v
    Executive                        tion network; (3) implement sufficient     by contractors. TVA needs assurance
                                                                                                                           generally accepted government audit-             a
                                     security to detect attempted or success-   it is not contracting with those parties
                                                                                                                           ing standards. TVA contracted with an
    Summary                          ful system intrusions; and (4) strength-   or entities that have been debarred or
                                                                                                                           independent registered accounting firm           7
                                     en physical security controls.             suspended from doing business with
                                                                                                                           for the audit of its fiscal year (FY) 2008       o
                                                                                the federal government or found un-
                                     A review of TVA’s practices for track-                                                financial statements and the review of its       i
                                                                                satisfactory by TVA as a result of prior
                                     ing and disposing of surplus computer                                                 interim reports filed with the Securities
                                                                                relations. An audit of TVA’s contracting                                                    g
                                     equipment found TVA needs to im-                                                      and Exchange Commission (SEC). In
                                                                                process found TVA: (1) lacked formal
                                     prove its processes for: (1) updating                                                 addition, TVA contracted with another
                                                                                procedures to assure the company
                                     inventory records for computer equip-                                                 independent registered accounting firm
                                                                                does not knowingly contract with par-
                                     ment taken out of service and placed                                                  for the audit of its restated FY 2007 and
                                                                                ties previously debarred or suspended
                                     in surplus; (2) recording all computer                                                FY 2006 financial statements. The OIG


                                                                                                      S e m i a n n u a l R e p o r t   | C h a l l e n g i n g T i m e s
        monitored the work of these firms and      Inspections                                           tools used in the nuclear unit construc-
                                                                                                                                                                                Statistical Highlights
                                                                                                                                                                                                                                                           Administrative in-      We also investigated a matter in which
        found no instances of noncompliance        A review of qualifications of contractor              tion project showed improvements                                                                                                                  quires during this      a contractor at the John Sevier Fossil
                                                                                                                                                                           October 1, 2008 ~ March 31, 2009
        with standards by either firm.             and subcontractor employees assigned                  were needed to: (1) ensure the accuracy                                                                                                           semiannual period       Plant had threatened a TVA employee.
                                                                                                                                                               Audit Reports Issued . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 14
                                                   to the nuclear unit construction project              of data in the contractor tool track-                                                                                                             include actions taken   TVA terminated the contract with the
                                                                                                                                                               Inspections Completed. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 4
        Operational Audits                         found the need to: (1) include mini-                  ing system; (2) define value criteria for             Questioned Costs. .  .  .  .  .  .  .  .  .  .  .  .  . $1,225,713                          following the discov-   individual. n
        A review of TVA’s telework initiatives     mum requirements for each position in                 bulk items; (3) ensure compliance with                Disallowed Costs. .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 828,697                       ery of three alleged
        found: (1) the company has a frame-        the job requisitions; (2) document the                small tool and equipment procedures;                  Funds Recovered. .  .  .  .  .  .  .  .  .  .  .  .  .  . $643,525                          hangman’s nooses. 
        work for telework, but there was little    rationale for accepting any candidate                 and (4) safe-keep tools in unlocked sea/              Funds to be Put to Better Use. .  .  .  .  .  .  .  .  .  . $0                              In one, a noose was
        evidence of compliance with the policy,    who does not meet the minimum re-                     land containers.                                      Funds Realized by TVA . .  .  .  .  .  .  .  .  .  .  .  .  .  .  . $0                      found at the Kingston
        especially with regard to training and     quirements for a position; (3) evaluate                                                                     Investigations Opened. .  .  .  .  .  .  .  .  .  .  .  .  .  . 171                         Fossil Plant (KFP)
                                                                                                         A review of TVA’s purchasing card
        approval of teleworking; (2) some tele-                                                                                                                Investigations Closed. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 91                    in September 2008,
                                                   the qualifications of employees who do                program found: (1) key controls were
        working occurs, but TVA has no system                                                                                                                  Fines/Recoveries/Restitution. .  .  .  . $11,077,996
                                                   not meet minimum qualifications and                   not functioning in the review of trans-                                                                                                           hanging approxi-
        for identifying those who telework or                                                                                                                  Criminal Actions . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 7
                                                   determine if they are qualified to per-               actions; (2) purchases were made that                                                                                                             mately 20 feet from a
        for tracking the extent of teleworking;                                                                                                                Administrative Actions (No. of Subjects) . .  .  . 3
                                                   form the work; and (4) assure resumes                 were disallowed by TVA policy; (3) cer-                                                                                                           stairway.  During the
        (3) approvals are demonstrated by          are thoroughly reviewed and any dis-                                                                                                                                                                    investigation of this
                                                                                                         tain best practices were not in place;                investigation of environmental crimes
        granting remote access to TVA systems      crepancies resolved prior to hiring the                                                                                                                                              matter, a second was reported which
                                                                                                         and (4) known or suspected instances                  initiated during the semiannual period.
        instead of following the approval pro-     individual.                                                                                                                                                                          had purportedly been hanging approx-
                                                                                                         of waste, fraud, and abuse were not re-               In November 2008, an operator at a
        cess; and (4) there are no additional                                                                                                                                                                                           imately 30 feet in the air on structural
                                                   Evaluation of controls to account for                 ported to the OIG as required by TVA’s                Tennessee wastewater treatment plant
        plans for the program at this time.                                                                                                                                                                                             steel outside of the Selective Catalytic
                                                                                                         accepted business practices. n                        was sentenced to a term of 18 months
                                                                                                                                                                                                                                        Reduction (SCR) for more than four
                                                                                                                                                               probation, 40 hours of community
        Representative Investigations
                                                                                                                                                                                                                                        years.  The third alleged noose was lo-
                                                                                                                                                               service, and a $100 special assessment
                                                                                                                                                                                                                                        cated at the Widow’s Creek Fossil Plant
                                                                                                                                                               after he pled guilty to a felony count
        Although a significant amount of In-       ably higher than in previous reporting                      TVA contractor Stone & Webster Con-                                                                                      (WCF).  The TVA OIG’s investigation
                                                                                                                                                               under the Clean Water Act. The case,
        vestigative resources have been focused    periods.                                                                                struction, Inc.                                                                              determined, however, that the “noose”
                                                                                                                                                               worked jointly with the Environmen-
        on the recent environmental events at                                                                                              (SWCI), agreed                                                                               was actually a looped tie-off rope used
                                                   Two Kentucky                                                                                                tal Protection Agency (EPA) Criminal
        TVA, our focus remains on major fraud                                                                                              to pay $6.2 mil-                                                                             to suspend vacuum tubing for fly ash
                                                   men were con-                                                                                               Investigation Division (CID), involved
        investigations. During this reporting                                                                                              lion to resolve a                                                                            removal.
                                                   victed of bank                                                                                              the operator falsifying reports relating
        period, final actions were taken in two                            A confidential connection for reporting fraud,                  contract fraud
t                                                  fraud, mail                       waste or abuse affecting TVA.                                             to fecal coliform and chlorine tests for                                 Another administrative inquiry in-                                                        t
        major investigations resulting in two                             www.OIGempowerline.com                                           investigation.      discharge that flowed into a creek end- volved an incident of unauthorized
v                                                  fraud, and nine                                                                                                                                                                                                                                                                v
        criminal convictions and restitution
                                                   counts of mon-                    1-877-866-7840                                        The settlement      ing in the Tennessee River, which is part computer port scanning at a TVA facil-
a                                                                                                                                                                                                                                                                                                                                 a
        of more than $4.5 million in one case                             EmPowerline™ is sponsored by the Office of the Inspector General
                                                                                                                                           amount reflects     of the TVA Watts Bar Watershed area.                                     ity. We recommended that TVA review:
                                                   ey laundering.                       and operates independently of TVA.

8       and a civil settlement of $6.2 million                                                                                             double dam-         A second case ended in a guilty plea                                     (1) the pertinent contract to determine                                                   9
                                                   They were
        in the other. Efforts also continue in                                                                 ages negotiated in view of the False            in January 2009, and it involved Her-                                    the need for contractors to have TVA
o                                                  ordered to pay more than $4.5 million                                                                                                                                                                                                                                          o
        the investigation of environmental                                                                     Claims Act violations involving under-          aeus Metal Processing, Inc., located in                                  log-on access and (2) the contractors’
                                                   in restitution after they diverted funds
i       crimes, which resulted in a guilty plea                                                                stated injury reporting. Significantly,                                                                                                                                                                            i
                                                   from two loans obtained for specified                                                                       Wartburg, Tennessee, which made false ability to operate independently of di-
g       to a Clean Water Act violation and a                                                                   the company also agreed to enter into                                                                                                                                                                              g
                                                   business purposes to unrelated uses.                                                                        statements in and omitted information rect TVA supervision. Additionally, we
        guilty plea under the Clean Air Act. Ad-                                                               the first Corporate Integrity and Moni-         from a document required by the Clean recommended TVA look further into
                                                   Lloyd Aaron Smith was sentenced to 30
        ditionally, the number of investigations                                                               toring Agreement in TVA history be-             Air Act. The corporation was sentenced this matter to determine relevant Infor-
                                                   months incarceration, and co-defen-
        opened from calls to our complaint                                                                     tween the OIG and a TVA contractor.             to pay a $350,000 fine and serve 18                                      mation Technology (IT) security con-
                                                   dant Neal Gordon Wall was sentenced
        line, Empowerline, has been consider-                                                                                                                  months probation.                                                        cerns and weaknesses of TVA systems.
                                                   to 28 months confinement.                                   TVA OIG also pressed forward in the


    S e m i a n n u a l R e p o r t | C h a l l e n g i n g T i m e s                                                                                                                                                                                  S e m i a n n u a l R e p o r t        | C h a l l e n g i n g T i m e s
                                      Office Responsibilities                OIG Responsibilities                      OIG Authority
                                      And Authority                          _ P romote economy and efficiency        _ C onduct any audit, inspection, or
                                      _ C reated by the TVA Board of Direc-   while preventing and detecting               investigation the IG deems neces-
                                         tors in 1985, the TVA OIG became      fraud, waste, and abuse                      sary or desirable
                                         statutory under the Inspector        _ C onduct and supervise audits,        _   Access all TVA records or other
                                         General Act Amendments of 1988          inspections, and investigations            material
                                         (IG Act). The authority to appoint      relating to TVA programs and op-
                                         the TVA Inspector General (IG)          erations
                                                                                                                       _   Issue subpoenas and administer
                                                                                                                            oaths
                                         was transferred to the President
                                         in November 2000 by Public Law
                                                                              _ Keep the TVA Board and Congress       _   Receive complaints and grant con-
                                                                                 fully and currently informed con-          fidentiality
                                         No. 106-422.                            cerning fraud and other serious
                                                                                 problems, abuses, and deficiencies    _   Have direct and prompt access to
                                                                                 relating to TVA programs and op-           the TVA Board
                                                                                 erations                              _   Hire employees and contract for
                                                                              _ Recommend corrective actions               services as necessary
                                                                                 concerning problems, abuses, and
                                                                                 deficiencies, and report on the
                                                                                 progress made in implementing
                                                                                 such actions
                                                                              _ Assure work performed by nonfed-
                                                                                 eral auditors complies with Gov-
                                                                                 ernment Auditing Standards
                                                                              _ Issue semiannual reports to TVA
                                                                                 Board and the Congress




>> C h a l l e n g i n g T i m e s



                                                                                                                                                                         t
                                                                                                                                                                         v
    Office                   of the
                                                                                                                                                                         a

    Inspector                                                                                                                                                            11
                                                                                                                                                                         o
    General                                                                                                                                                              i
                                                                                                                                                                         g




                                                                                                   S e m i a n n u a l R e p o r t   | C h a l l e n g i n g T i m e s
         OIG Strategic Plan                          Goals & Objectives
                                                     Performance                                                                                            Office of Inspector General—Tennessee Valley Authority
         Mission
                                                     Perform timely reviews that address stakeholder concerns and areas of highest risk
         Promote excellence in TVA’s operations                                                                                                                                                             Richard W. Moore
                                                                                                                                                                                                            Inspector General
         through the conduct of investigations,      _ Focus efforts on areas of highest impact and risk
         audits, inspections, and advisory ser-      _ E nsure processes are efficient and effective
         vices designed to promote economy,          _ S tay abreast of emerging issues and industry trends
         efficiency, and effectiveness and prevent   _ S tay abreast of stakeholder concerns
         and detect fraud, waste, and abuse          _ P roduce work that is timely, relevant, and of high quality
         Vision                                      Workforce
                                                     Cultivate and retain a highly skilled, productive, and fully engaged workforce
         To be a highly effective organization
                                                                                                                                                      Ben R. Wagner                         Charles A. Kandt                     Stefanie D. Hoglund
         that promotes positive change by iden-      _ H ire and retain a well-qualified workforce                                               Deputy Inspector General                   Legal Counsel                     Communications Specialist
         tifying opportunities for improvements      _ M aintain competitive pay and award programs that allow for rewarding team                                                   Audits & Inspections
         in the performance and efficiency of            and individual contributors
         TVA’s programs and operations               _  Develop leadership, team and technical skills of each employee
                                                     _  Ensure accountability in individual performance
         Core Values                                 _  Promote effective communications within OIG
         _ Independence                             Stakeholder                                                                                     Jill M. Matthews                       Robert E. Martin                        Gregory C. Jaynes
         _ Integrity                                                                                                                            Deputy Assistant Inspector            Assistant Inspector General              Deputy Assistant Inspector
                                                     Communicate effectively with stakeholders and deliver services that meet their needs       General, Audits and Support              Audits and Inspections                   General, Inspections
         _ Innovation
         _ Initiative                               _ Improve stakeholder awareness of OIG
         _ Q uality                                 _ E nsure stakeholders are kept informed
         _ R esults                                 _ E nsure stakeholders have an opportunity to provide input in the annual au-
                                                         dit planning process and each individual review, as appropriate
         _ Leadership                                                                                                                            Lisa H. Hammer
                                                                                                                                              Director, Financial and
                                                                                                                                                                             Louise B. Beck
                                                                                                                                                                          Manager, Audit Quality
                                                                                                                                                                                                          David P. Wheeler
                                                                                                                                                                                                      Director, Contract Audits
                                                                                                                                                                                                                                            Phyllis R. Bryan
                                                                                                                                                                                                                                           Director, IT Audits
         _ Teamwork                                 Organization                                                                               Operational Audits                                                                            and Support
         _ C ommunication                           The OIG is headquartered in the TVA East Tower in Knoxville,                                                       Administration & Government Relations
         _ R espect for Individual                  Tennessee, across from the TVA headquarters, which is in the
t                                                    West Tower. The OIG has a major satellite office in the Edney                                                                                                                                                          t
v                                                    Building in Chattanooga, Tennessee, where the Inspections unit                                                                                                                                                         v
a                                                    and several investigators are located. There also is a staffed field office                                                                                                                                            a
                                                     at Watts Bar Nuclear Plant, Tennessee, to which an auditor and investigator are
12                                                                                                                                                                         Ronald Wise                          Kay T. Myers                                                13
                                                     assigned. In addition, the Investigations unit has staffed field offices in Nashville,                         Assistant Inspector General           Manager, Human Resources
o                                                    Tennessee; Huntsville, Alabama; and Mayfield, Kentucky.                                                            Administration and                                                                                  o
                                                                                                                                                                       Government Relations
i                                                                                                                                                                                                                                                                           i
                                                     As of March 31, 2009, the OIG was composed of 104 individuals. This includes:                                                        Investigations
g                                                    (1) 62 individuals with the Audit and Inspections units; (2) 32 individuals with the                                                                                                                                   g
                                                     Investigations unit; and (3) 10 individuals with the Administrative unit.

                                                     The number of personnel located at each staffed office is as follows: Knoxville -
                                                     76, Watts Bar Nuclear Plant - 2, Chattanooga - 18, Nashville - 3, Huntsville - 4,
                                                                                                                                                  John E. (Jack) Brennan                   Nancy J. Holloway                         Paul B. Houston
                                                     and Mayfield, Kentucky - 1.                                                                Assistant Inspector General              Special Agent In Charge                  Special Agent In Charge
                                                                                                                                                      Investigations

     S e m i a n n u a l R e p o r t | C h a l l e n g i n g T i m e s                                                                                                                                S e m i a n n u a l R e p o r t   | C h a l l e n g i n g T i m e s
         Administration                                Inspections group makes recommen-                                                                        between TVA and its distributors.
                                                                                                                                                                These audits are a first for the IG,
                                                                                                                                                                                                        allegations of fraud, waste, abuse, and
         The administrative section works              dations to enhance the effectiveness                                                                                                             mismanagement.
                                                                                                                                                                and our first-year plans include
         closely with the IG, Deputy IG, and           and efficiency of TVA’s programs and                                                                     developing and refining a sustain-      Audit and inspection findings vary
         Assistant IGs to address the day-to-day       operations. The group uses an impact-                                                                    able audit approach and sampling
                                                                                                                                                                                                        depending on the objectives of the
                                                       and risk-based approach to developing                                                                    plan.
         operations of the OIG and to develop                                                                                                                                                           project. Issues can be generalized into
         policies and procedures. Responsibili-        an annual work plan. The group’s plan                                                                   
                                                                                                                                                           _ Financial/Operational Audits has
                                                                                                                                                                lead responsibility for: (1) over-      specific categories depending on the
         ties include operations for personnel         considers TVA’s strategic plans, major              CONTRACT
                                                                                                             CONTRACT               DISTRIBUTOR
                                                                                                                                       DISTRIBUTOR              sight of TVA’s financial statement      type of engagement performed. The
         administration, budget and financial          management challenges, enterprise risk               AUDITS
                                                                                                              AUDITS                   AUDITS
                                                                                                                                          AUDITS                audit and related services per-         following graphic shows some repre-
                                                       management process, and other input             Inflated
                                                                                                           Inflated
                                                                                                                Proposals
                                                                                                                    Proposals         Contractor
                                                                                                                                         Contractor             formed by TVA’s external auditor;
         management, purchasing and contract                                                                                                                    (2) reviews of TVA’s internal con-      sentative examples of issues commonly
                                                       from TVA management. The planning                     Contract
                                                                                                                Contract            Noncompliance
                                                                                                                                       Noncompliance
         services, facilities, conferences, and gov-                                                                                                            trols related to financial reporting,   reported. n
                                                       model also evaluates each potential en-            Overpayments
                                                                                                              Overpayments          Misstatement
                                                                                                                                       Misstatement
                                                                                                                                                  of of         operational efficiency, and compli-
         ernment relations.
                                                                                                             Inferior
                                                                                                                Inferior                Power
                                                                                                                                            Power               ance with laws and regulations;
                                                       gagement from the standpoint of ma-
                                                                                                          Performance
                                                                                                              Performance            Sales
                                                                                                                                         Sales
                                                                                                                                           to TVA
                                                                                                                                               to TVA           and (3) operational reviews to as-
         Investigations                                teriality (i.e., costs or value of assets),
                                                                                                              Fraud
                                                                                                                 Fraud                  Fraud
                                                                                                                                            Fraud               sess the results and economy and
         Investigations conducts and coordi-           potential impact, sensitivity (including                                                                 efficiency of TVA programs.
         nates investigative activity related to       public and/or congressional interest),                                                                  
                                                                                                                                                           _ IT Audits has lead responsibility
                                                                                                                                                                for audits relating to the security
         fraud, waste, and abuse in TVA pro-           and likelihood it will result in recom-
                                                                                                                                                                of TVA’s IT infrastructure, applica-
         grams and operations. The activities          mendations for cost savings or process                                                                   tion controls, and general controls
         investigated include possible wrongdo-        improvements. The result of the OIG               INFORMATION
                                                                                                            INFORMATION               FINANCIAL
                                                                                                                                         FINANCIAL              associated with TVA systems. This
         ing by contractors, employees, eco-           audit and inspections planning process             TECHNOLOGY
                                                                                                             TECHNOLOGY                 AUDITS
                                                                                                                                           AUDITS               group also performs operational
                                                       is a focus on those issues of highest                AUDITS
                                                                                                               AUDITS               Internal
                                                                                                                                       Internal
                                                                                                                                             Control
                                                                                                                                                 Control
                                                                                                                                                                reviews of the effectiveness of
         nomic development loan recipients,                                                                                                                     IT-related functions. In addition
                                                                                                          Unauthorized
                                                                                                             Unauthorized             Deficiencies
                                                                                                                                          Deficiencies
         and others who commit crimes against          impact and risk of fraud, waste, abuse,                                                                  to its audit mission, IT Audits is
                                                                                                             Access
                                                                                                                 Access                 Material
                                                                                                                                            Material            responsible for developing and
         TVA. Investigations maintains liaison         or in regards to IT, malicious, or other
                                                                                                       Inadequate
                                                                                                          Inadequate
                                                                                                                   Controls
                                                                                                                      Controls       Misstatements
                                                                                                                                         Misstatements          supporting an independent OIG
         with federal and state prosecutors and        intrusion.                                                                                               computer network.
                                                                                                           LackLack
                                                                                                                of Data
                                                                                                                    of Data               Legal
                                                                                                                                             Legal
         reports to the Department of Justice          The Audits group, based in Knoxville,                Integrity
                                                                                                                Integrity            Noncompliance
                                                                                                                                        Noncompliance      The Inspections group, based in Chat-
         whenever the OIG has reason to believe        conducts and/or supervises compre-                     Fraud
                                                                                                                  Fraud                  Fraud
                                                                                                                                             Fraud         tanooga, Tennessee, seeks to ensure that
         there has been a violation of federal         hensive financial and performance au-                                                               program objectives and operational
         criminal law. Investigations works            dits of TVA programs and operations.                                                                functions are achieved effectively and
t        with other investigative agencies and                                                                                                             efficiently. It performs both compre-                                                        t
         organizations on special projects and
                                                       It consists of four departments—Con-              OPERATIONAL
                                                                                                           OPERATIONAL               INSPECTIONS
                                                                                                                                        INSPECTIONS
                                                                                                                                                           hensive reviews and more limited
v                                                      tract Audits, Distributor Audits, Finan-            AUDITS
                                                                                                              AUDITS                                                                                                                                    v
         assignments, including interagency law                                                                                     Internal
                                                                                                                                       Internal
                                                                                                                                             Control
                                                                                                                                                Control    scope policy and program reviews. In
a                                                      cial/Operational Audits, and IT Audits.       Operational
                                                                                                        Operational
                                                                                                                  Inefficiency
                                                                                                                     Inefficiency     Deficiencies
                                                                                                                                         Deficiencies                                                                                                   a
         enforcement task forces on terrorism,                                                                                                             accordance with the Quality Standards
         the environment, and health care.             _ C ontract Audits has lead respon-           NotNot
                                                                                                         Achieving
                                                                                                             Achieving
                                                                                                                    Intended
                                                                                                                        Intended      Operational
                                                                                                                                         Operational
14                                                                                                            Results
                                                                                                                 Results              Inefficiency
                                                                                                                                         Inefficiency      for Inspections, the objectives of the                                                       15
                                                           sibility for contract compliance
                                                                                                      Inferior
                                                                                                          Inferior
                                                                                                                Performance
                                                                                                                   Performance           Policy
                                                                                                                                             Policy        Inspections group include provid-
o                                                          and preaward audits. In addition,                                                                                                                                                            o
         Audits And Inspections                            this group performs reviews of TVA                                        Noncompliance
                                                                                                                                        Noncompliance      ing a source of factual and analytical
i                                                                                                       Legal/
                                                                                                            Legal/
                                                                                                                Regulatory
                                                                                                                   Regulatory                                                                                                                           i
         The Audits and Inspections group                  contracting processes and provides            Noncompliance
                                                                                                             Noncompliance               Fraud
                                                                                                                                             Fraud         information, monitoring compliance,
g        performs a wide variety of engage-                claims assistance and litigation                                                                                                                                                             g
                                                           support.                                            Fraud
                                                                                                                  Fraud                                    measuring performance, assessing the
         ments designed to promote positive                                                                                                                efficiency and effectiveness of opera-
         change and provide assurance to TVA
                                                       _  Distributor Audits has lead respon-
                                                           sibility for contract compliance                                                                tions, and/or conducting inquiries into
         stakeholders. Based upon the results              reviews of TVA’s distributors. This
         of the engagements, the Audits and                group assesses compliance with
                                                           the terms of the power contracts


     S e m i a n n u a l R e p o r t | C h a l l e n g i n g T i m e s                                                                                                            S e m i a n n u a l R e p o r t   | C h a l l e n g i n g T i m e s
                S p e cia l F ea ture:
                                                                         T
                                                                                VA is facing challenges of historic proportions. Some of these
                                                                                challenges include decreasing revenues due to a national eco-
                                                                                nomic crisis, fluctuating rates for TVA customers due to chang-
                                                                         ing fuel costs, an adverse federal environmental judgment in North
                                                                         Carolina with severe financial ramifications for TVA, and finally but not
                                                                         least, an unprecedented environmental spill publicly compared to the
                                                                         Exxon Valdez spill. This puts TVA squarely in the crosshairs. So, does
                                                                         any of that impact the way the TVA OIG does its work?

                                                                         “More than ever, our job is to pro-         Additionally, the OIG has launched an
                                                                         vide some level of assurance to our         independent assessment of the cause.
                                                                         stakeholders that there is an objective
                                                                         ‘watchdog’ evaluating all of the current
                                                                         challenges TVA is facing,” says Inspec-
                                                                         tor General Richard Moore. “We have a
                                                                         heavier burden to fairly report the facts
                                                                         than ever before.”

                                                                         During this reporting period, TVA’s
                                                                         public scrutiny was magnified due to a
                                                                         dike failure near Kingston, Tennessee,
                                                                         that allowed approximately 5 million
                                                                         cubic yards of water and coal fly ash         Kingston Ash Spill Aerial View
                                                                         to flow out onto approximately 300
                                                                         acres, including about 8 acres of pri-      The spill, coupled with a ruling in a
                                                                         vately owned land. Some of this mate-       North Carolina lawsuit that judicially
                                                                         rial flowed into the nearby Watts Bar       established emissions from four of
                                                                         Reservoir, and the spill rendered three     TVA’s coal-fired plants constituted
t                                                                                                                                                                     t
                                                                         homes uninhabitable because of struc-       public nuisances, brought even more
v                                                                                                                                                                     v
                                                                         tural damage.                               intense focus on TVA’s use of coal as a
a                                                                                                                                                                     a
                                                                                                                     source to generate power.
                                                                         The spill received international at-
16                                                                       tention and sparked visits to the area      Before TVA’s onslaught of public                 17
                                                                         from renowned environmentalist              plights, Moore had already launched
o                                                                                                                                                                     o
                                                                         Erin Brockovich who met with Kings-         a strategic initiative to evaluate TVA
i                                                                                                                                                                     i
                                                                         ton residents impacted by the spill. Nu-    and answer the very basic question of,
g                                                                                                                                                                     g
                                                                         merous lawsuits were filed against TVA      “How is TVA doing?” in a series of au-
                                                                         in regard to the spill.                     dit reports. These reviews benchmark
                                                                                                                     the largest U.S. power provider against
                                                                         TVA has retained an independent en-
                                                                                                                     other comparable power providers in
                                                                         gineering firm to perform an analysis
                                                                                                                     the country in the areas of customer
                                                                         to determine the cause of the release.


     S e m i a n n u a l R e p o r t | C h a l l e n g i n g T i m e s                          S e m i a n n u a l R e p o r t   | C h a l l e n g i n g T i m e s
                                                                         fair and an impar-
                                                                         tial manner.”
                                                                                                 energy capacity….We will put Ameri-
                                                                                                 cans to work in new jobs that pay            Noteworthy Undertakings
                                                                                                 well—jobs installing solar panels and
                                                                         The first bench-
                                                                                                 wind turbines; constructing energy-ef-
                                                                                                                                              OIG Conducts COOP Drill                      was placed in telework status on the        if their corporate culture discourages
                                                                         marking report on                                                    It’s 8:30 a.m. on February 25, 2009,         same day.                                   fraudulent acts by their employees and
                                                                                                 ficient buildings; manufacturing fuel-                                                                                                that their ethics goes beyond a poster
                                                                         customer relations                                                   and the disaster response team for the       For the OIG, this scenario was the
                                                                                                 efficient vehicles; and developing the                                                                                                on the wall? We think so.
                                                                         assessed key per-                                                    OIG is summoned to the Emergency             initial test of the COOP and recent tele-
                                                                                                 new energy technologies that will lead
                                                                         formance measures                                                    Operations Center. In a room flanked         work-related information technology
                                                                                                 to even more jobs and more savings,
                                                                         and their align-                                                     by computers, seven members of the           (IT) upgrades. During the post-drill
                                                                                                 putting us on the path toward energy
                                                                         ment with the key                                                    Inspector General’s staff have gathered      meeting, the first response team pro-
                                                                                                 independence for our Nation and a
                                                                         strategic objectives,                                                to hear an announcement by Deputy            vided the following lessons learned.
                                                                                                 cleaner, safer planet in the process.”
                                                                         evaluated TVA’s                                                      Inspector General Ben Wagner. “A train
                                                                         results relative to     This Presidential initiative will present    carrying toxic chemicals on board de-
                                                                                                                                                                                           _ The COOP was executed smoothly.
                                                                                                                                                                                               The core team was assembled by
                                                                         targets and available   TVA with yet another challenge fol-          railed in downtown Knoxville at 3 a.m.           8:30 a.m. and, by 9 a.m., the team
                                                Kingston Ash Spill       benchmark infor-        lowing the intense scrutiny the agency       The subsequent chemical leak has ren-            had accounted for all affected
                                                                                                                                                                                               Knoxville employees.
                                                                         mation, and identi-     is undergoing as a result of the Kings-      dered the Knoxville office space unin-
         relations, finance, environmental stew- fied key management challenges that             ton ash spill on December 22. The            habitable. All Knoxville employees will          
                                                                                                                                                                                           _ The IT issues encountered were
                                                                                                                                                                                               generally minimal, primarily in the
         ardship and operations. They also eval- could affect how successful TVA is in           TVA OIG’s benchmarking report will                                                                                                      IG Richard Moore
                                                                                                                                              be required to work from home until              area of user assistance for those
         uate how well TVA achieves the goals it achieving these strategic objectives.           naturally highlight TVA’s response to                                                         employees who (1) had not previ-
                                                                                                                                              the situation is resolved,” says Wagner.
         sets for itself.                                                                        the Kingston ash spill, but the report                                                        ously teleworked and (2) had not
                                                    The second report on finance will be                                                      The Deputy IG’s report hushes the                used the internal virtual private       The OIG encouraged TVA Ethics and
         “I thought it was important to create a                                                 will also analyze TVA’s overall envi-                                                         network. However, the laptop for        Compliance officer Peyton Hairston to
                                                    released this spring, followed by a re-                                                   room, setting off a flurry of activity as
         format that would allow us to effective- port on environmental stewardship              ronmental record prior to the coal ash                                                        one core team member malfunc-           bring in TVA’s key contractors to start
                                                                                                                                              the team shifts into response mode. In           tioned during the test. All IT is-
         ly answer one basic question: ‘How is                                                   spill at Kingston, Tennessee. The OIG                                                                                                 the process of “talking culture.” At TVA,
                                                    and operations. Financial performance                                                     reality, there was not a train derailment        sues arising throughout the day
         TVA doing?’” Moore notes. “This seems is a prime determinate of sustainable             will issue several reports on the Kings-                                                      were successfully resolved.             the belief is that good ethics equals
                                                                                                                                              or chemical leak. This was only part of
                                                                                                 ton spill in the coming months that
         to me to be a question that an IG’s of-    success. The strategic challenges facing                                                  a drill the OIG devised to test its conti-       
                                                                                                                                                                                           _ The OIG recognized there needed
                                                                                                                                                                                               to be provision for spare IT equip-
                                                                                                                                                                                                                                       good business, and TVA strives to drive
         fice, which is congressionally charged                                                  will focus on its cause, TVA’s response                                                                                               that belief throughout the organization.
                                                    TVA require a sound, long-term finan-                                                     nuity of operations plan (COOP) and
                                                                                                 to it, and efforts to prevent such a spill                                                    ment added to the supplies pro-
         with providing oversight to an agency,     cial plan and vision, which this report                                                                                                                                            Employees are expected to adhere to
                                                                                                                                              identify technology challenges associ-           vided at the alternate site. No
         should be able to answer about that                                                     in the future. n                                                                              other changes to the COOP were          more than the Office of Government
                                                    will evaluate.                                                                            ated with the entire workforce working
t        agency. While all of our work should                                                                                                                                                  identified.                             Ethics rules. They are to embody a cul-             t
                                                    The report on environmental steward-                                                      from remote locations. Prior to this
v        cumulatively answer that question,                                                                                                                                                The COOP test provided the OIG a            ture of honesty and accountability that             v
                                                    ship has the potential to generate sig-                                                   daylong exercise, the OIG employees
a        compiling data in four basic reports per                                                                                                                                          valuable experience that will help the      outstrips rules about the dollar limits             a
                                                    nificant interest in light of the current                                                 knew they would be participating in
         year informs stakeholders about TVA’s                                                                                                                                             OIG respond to real emergencies in a        on gifts. TVA took the admirable step
                                                    Presidential Administration’s focus                                                       a drill. However, they weren’t told the
18       performance in a clearer way. If the IG’s                                                                                                                                         more effective and efficient manner.        of creating an Ethics and Compliance                19
                                                    on utilizing renewable energy sources                                                     exact nature of the “emergencies” they
         office can’t answer the basic question                                                                                                                                                                                        Office that seeks to drive the corporate
o                                                                                                                                                                                                                                                                                          o
         of ‘How is TVA doing?’ then I am not
                                                    to generate power while drastically                                                       would face.
                                                                                                                                                                                           Ethics – Going Beyond                       ethics of the business throughout the
i                                                                                                                                                                                                                                                                                          i
         sure that we are truly doing our job.
                                                    reducing reliance on coal-powered                                                         While telework is an everyday occur-         Paper                                       organization.
g                                                   plants. President Barack Obama has                                                        rence at the TVA OIG, with approxi-          How much should federal agencies or                                                             g
         We are in a uniquely qualified position
                                                    stated, “To finally spark the creation                                                    mately 30 to 50 percent of the OIG           any business know about their contrac-      The OIG questioned, however, how
         to be able to provide this information
                                                    of a clean energy economy, we will                                                        Knoxville workforce teleworking on           tors? Do we need to know anything           effective any agency’s ethical firewall
         as our mission is always fact-finding in
                                                    make the investments in the next three                                                    a given day, this was the first occasion     beyond their written code of ethics or      can be if it doesn’t have a like commit-
         nature and our independent authority
                                                    years to double our nation’s renewable                                                    where everyone in the Knoxville office       their financials? Would it help to know     ment from its contractual partners. The
         demands that we report these facts in a


     S e m i a n n u a l R e p o r t | C h a l l e n g i n g T i m e s                                                                                                                                           S e m i a n n u a l R e p o r t   |   C h a l l e n g i n g   T i m e s
                                                                            building more             Compliance Officer. He stressed TVA’s             overview of the legal and regulatory         The TVA OIG releases New Fraud Video
                                                                            than a contractual        current outreach program to ensure                framework of TVA.                            The TVA OIG’s latest video release addresses the thought, “If only it were easy
                                                                            relationship. An          TVA’s contractors and vendors were                                                             to spot fraud.” The four-minute video showcases what it might look like if this
                                                                                                                                                        At the end of the day, the contractors’
                                                                            ethics and compli-        aware that TVA’s ethical conduct stan-                                                         were easy, but because it’s not, a message from the Inspector General highlights
                                                                                                                                                        representatives were asked if they felt
                                                                            ance forum was            dards, processes and the OIG’s initiative                                                      what employees can do if they suspect fraud.
                                                                                                                                                        that the experience was helpful. There
                                                                            jointly sponsored         go beyond paper. They’re part of the
                                                                                                                                                        was widespread agreement that this
                                                                            by the TVA Of-            contracting and communication pro-
                                                                                                                                                        kind of exchange was healthy, and                                           If only it were this easy
                                                                            fice of Corporate         cesses of TVA.                                                                                                                   to spot the bad guys.
                                                                                                                                                        many expressed appreciation that TVA
                                                                            Responsibility and
                                                                                                      Conference attendees benefited from
                                                                            the OIG. Contrac-
                                                                                                      the participation of Eric Feldman, a
                                                                            tors came from as
                                                                                                      former inspector general and now the
                                                                            far away as Colo-
CFO Kim Greene lays out to                                                                            Senior Advisor for Procurement In-
contractors TVA’s expectations.                                             rado, Connecticut,
                                                                                                      tegrity at the National Reconnaissance
                                                                            Illinois, and Texas
                                                                                                      Office. Feldman, who has 30 years of
         first step is simply getting to know who                           to work with the
                                                                                                      experience in federal audit work, pro-
         you do business with on more than a         TVA OIG to find the best ways to en-
                                                                                                      vided an in-depth review of the new
         superficial level. What if we could get     sure that honesty and fairness are pres-
                                                                                                      mandatory fraud disclosure rule re-
         our contractors to train their employ-      ent in our business relationships and                                                        TVA Assistant General Counsel
                                                                                                      cently added to the Federal Acquisition
                                                     to smooth the way for self-reporting                                                         Ralph Rodgers explaining the
         ees on our ethical standards? What if                                                        Regulations.                                rules TVA employees must follow.
         we demonstrated that TVA’s ethics are       of issues that may arise. The expecta-
         more than skin deep? These questions        tion is that self-reporting will result in
                                                                                                                                                        officials had initiated the process. There
         prompted TVA to invite its largest con-     addressing and resolving issues before
                                                                                                                                                        was interest by the contractors to have                                                                        Help us stop fraud, waste and abuse.
                                                                                                                                                                                                                                                                    Protect your job, your benefits , your future.

         tractors (those with contracts of $25       they turn into major problems, and less
                                                                                                                                                        TVA officials and the OIG go on-site                                                                            The true power of TVA
         million and more) to meet in Knox-          litigation will occur as a result.                                                                                                                                                                                    comes from you.
                                                                                                                                                        to the contractors’ locations to become
         ville, Tennessee, to start the first in a                                                                                                                                                                      1-877-866-7840                                        Office of the
                                                     The contractors attended a reception                                                               acquainted with the contractors’ ethics                        OIGempowerline.com
                                                                                                                                                                                                                                                                      OIG
                                                                                                                                                                                                                                                                              Inspector General
                                                                                                                                                                                                                                                                                     Tennessee Valley Authority

         series of “cultural exchanges.”             and dinner where they had the oppor-                                                               and compliance programs. n
         Richard Moore, TVA’s Inspector Gener-       tunity to meet key TVA officials as well                                                                                                        Our office initiated this effort to encourage TVA employees, contractors, and the
t        al, told of his own personal experience     as the Inspector General’s staff. The                                                                                                           public to report possible instances of fraud, waste, abuse, and mismanagement                                               t
v        of seeing for the first time representa-    next day, TVA officials presented TVA’s                                                                                                         to the office’s hotline, the Empowerline, which allows users to report anony-                                               v
                                                     code of conduct and stressed TVA’s ex-             Eric Feldman explaining the
a        tives of a major TVA contractor in a                                                           fraud disclosure rule.                                                                       mously if they choose.                                                                                                      a
         federal district courtroom. “I thought      pectations for both TVA employees and
                                                                                                                                                                                                     To view the video, visit www.oig.tva.gov, and click on the video link. n
20       to myself that was a poor way to do         the contractors’ employees. In opening
                                                                                                      TVA Vice President Terrell Burkhart
                                                                                                                                                                                                                                                                                                                                 21
         business. I knew nothing about the          the program, TVA Chief Financial Offi-
o                                                                                                     discussed TVA’s contracting process,                                                                                                                                                                                       o
         company’s culture and whether we            cer (CFO) Kim Greene pointedly stated
 i                                                                                                    and TVA’s contractors were made                                                                                                                                                                                            i
         were dealing with ‘rogue employees’ or      that when it comes to ethical integrity,
g                                                                                                     aware of the strictures pertaining to                                                                                                                                                                                      g
         a company that winked at fraud.”            “Close is good enough is not accept-
                                                                                                      TVA employees by Ralph Rodgers,
                                                     able . . . it has to be pristine, it has to be
         Twenty-three representatives from 17                                                         TVA’s Assistant General Counsel for
                                                     perfect.”
         of TVA’s largest contractors responded                                                       Procurement & Corporate Contracts
         to the challenge to start a process of      Senior Vice President Peyton Hairston            as well as the Designated Agency Eth-
                                                     described his role as TVA’s Ethics and           ics Official. Rodgers also provided an


     S e m i a n n u a l R e p o r t | C h a l l e n g i n g T i m e s                                                                                                                                                   S e m i a n n u a l R e p o r t        |    C h a l l e n g i n g                           T i m e s
                                          During this reporting period, we             General Computing Controls Need Improvement
                                          completed 14 audits, reviews, and            for Financially Significant System
                                          agreed-upon procedures, which                We reviewed general comput-
                                          identified more than $1.2 million in         ing controls relating to servers
                                          questioned costs. We also identified         at a vendor hosting one of
                                          opportunities for TVA to strengthen          TVA’s financially significant
                                          its system of internal control. These        systems. We found the vendor
                                          projects included IT audits, financial-      had not: (1) implemented ad-
                                          related engagements, operational             equate account management
                                          audit, and contract reviews. In ad-          procedures to ensure account-
                                          dition, we completed eight other             ability; (2) adequately config-
                                          audit-related projects.                      ured systems on the production
                                                                                       network; and (3) implemented
                                          IT Audits                                    sufficient security to detect attempted or successful attacks. In addition, weakness-
                                          “With technology advancement and             es were identified related to physical access to the processing facility. The vendor
                                          changes in the associated risks, we are      agreed with our findings.
                                          challenged more than ever before to
                                          promote security effectiveness.”
                                                                                           Control Improvements Needed for Surplus
                                               Phyllis R. Bryan                            Computer Equipment
                                                         Director
                                                                                            We performed a review to determine
                                              IT Audits & Support
                                                                                            whether TVA’s: (1) process used to
                                          During this semiannual                            surplus and dispose of computer equip-
                                          period, we completed                              ment is adequate and ensures TVA
                                          three audits in the IT                            information is not improperly disclosed
                                          environment pertain-                              and (2) disposal process meets environ-
>> C h a l l e n g i n g T i m e s        ing to: (1) general computing controls       mental regulations. We found TVA’s process
                                          for a financially significant application;   for the disposal of surplus computer equip-
                                          (2) controls over TVA’s process used to      ment does not adequately protect TVA
                                          dispose of computer equipment; and           resources or track the disposition of surplus                                                   t
                                          (3) pre-implementation review of con-                                                                                                        v
    Summary                          of
                                          trols for a new access request system.
                                                                                       equipment. Specifically, we determined:
                                                                                       (1) the equipment inventory was not cor-                                                        a
                                          We also completed two audits in sup-         rectly updated when equipment was re-
    Representative                        port of TVA’s FY 2008 efforts to comply      moved from service; (2) equipment trans-                                                        23
                                          with SOX. Highlights of these audits         ferred to surplus was not tracked to prevent                                                    o
    Audits                                follow.                                      unnecessary storage, loss, or theft; (3) monitors transferred to surplus were not               i
                                                                                       packaged and labeled to meet environmental requirements; (4) the organization                   g
                                                                                       responsible for surplus equipment did not maintain an inventory of equipment
                                                                                       received for disposal or reconcile equipment received with equipment indentified
                                                                                       as surplus; and (5) the disposition records maintained did not account for the dis-
                                                                                       position of 6,631, or 63.9 percent, of the computers identified as surplus.



                                                                                                             S e m i a n n u a l R e p o r t   |   C h a l l e n g i n g   T i m e s
         Pre-implementation                          cess requests; (3) database containing      and (2) roll-forward, remediation and        Agreed-Upon Procedures                     TVA Telework Initiatives                   We recommended TVA management:
         Review Concludes New                        approval information was regularly          nonoccurrence testing for 18 IT general      Applied to 2008 Winning                    We reviewed TVA’s efforts to imple-        _ W ork with other TVA organiza-
         Access Request System                       backed up; and (4) application’s Web        controls and 31 application controls,        Performance Payouts                        ment telework, as well as any planned          tions to determine which jobs and
         Controls Were Adequate                      page program code had adequate input        which were initiated at the end of the       We performed agreed-upon proce-            telework initiatives. Our review deter-        functions in TVA are conducive to
         We performed a pre-implementation                                                                                                    dures, which were requested solely to                                                     telework.
                                                     checks to prevent unauthorized ma-          previous FY. Overall, we noted oppor-                                                   mined:
         review of TVA’s new automated access        nipulation or disclosure of data.           tunities to improve SOX documenta-           assist management in determining the                                                      
                                                                                                                                                                                                                                    _ Consider a pilot program that
         request system. We found: the (1) ap-                                                   tion, operating effectiveness of controls,   validity of the Winning Performance        _ TVA’s Business Practice 20, Off-            would be informative in future
                                                                                                                                                                                             site Use of Business Equipment             decisions concerning telework
         proval process worked as documented         FY 2008 IT SOX Testing                      and areas where control gaps existed.        payout awards for the FY ended Sep-            (BP 20), provides a framework for          and identify ways to use telework
         and restricted users from approving         Identified Opportunities                                                                 tember 30, 2008.                               telework; however, we found little         to facilitate COOP planning and
         any request for which they were the         for Improvement                             TVA management generally agreed with                                                        evidence of compliance with the            responding to emergency situa-
                                                                                                 our findings and has taken or is in the      In summary, we found:                          policy, especially as related to           tions such as pandemics or natural
         requestor or the initiator; (2) applica-    During the first half of the semiannual
                                                                                                                                                                                             required training and method of            disasters.
                                                                                                 process of taking corrective action to
         tion maintained adequate approval           period, we completed (1) compliance                                                      _ The FY 2008 Winning Performance             approval.                                  
                                                                                                                                                                                                                                    _ Implement a telework policy that
                                                     testing of controls for one application     remediate issues noted in these audits.          goals were properly approved.
         information to allow for audit of ac-
                                                                                                                                              _ A ctual year-to-date inputs for the
                                                                                                                                                                                             
                                                                                                                                                                                         _ Pockets of teleworkers exist
                                                                                                                                                                                             throughout TVA. However, TVA has
                                                                                                                                                                                                                                        provides a method for approving
                                                                                                                                                                                                                                        employees to telework, appropri-
                                                                                                                                                  sampled metrics agreed with the            no system for tracking individu-           ate training to supervisors and all
         Financial and                               FY 2008 Financial Statement Audit                                                            respective supporting documenta-           als who telework or the extent to          employees authorized to telework,
         Operational Audits                          Complied with Standards                                                                      tion.                                      which they telework.                       a tracking system for individuals
                                                                                                                                                                                                                                        who telework, and effective com-
         “Our group strives to provide manage-       TVA contracted with the independent public accounting firm of Ernst & Young              _  Actual inputs for the three incen-         
                                                                                                                                                                                         _ Employees are approved to tele-              munication of TVA’s telework policy
         ment with information regarding the         LLP (Ernst & Young) to audit TVA’s balance sheet as of September 30, 2008, and               tivized TVA-wide metrics agreed            work by being granted remote ac-
                                                                                                                                                  with the underlying support pro-                                                      to TVA employees.
         effectiveness of TVA’s financial report-                                                                                                                                            cess to TVA systems instead of fol-
         ing and operational controls.”
                                                     the related statements of income, changes in proprietary capital, and cash flows             vided by the Strategic Business
                                                                                                                                                  Units with one exception related
                                                                                                                                                                                             lowing the BP 20 approval process.         
                                                                                                                                                                                                                                    _ Consider designating a Telework
                                                                                                                                                                                                                                        Managing Officer.
                                                         for the year then ended. In addition, the contract called for the review of TVA’s                                               We did not identify any planned tele-
               Lisa H. Hammer                                                                                                                     to the equivalent availability fac-
                       Director
                                                         fiscal year 2008 interim financial information filed on Form 10-Q with the
                                                                                                                                                  tor metric. This one exception did     work initiatives. However, telework is         
                                                                                                                                                                                                                                    _ Consider requiring that essential
                                                                                                                                                                                                                                        employees take their laptop com-
                                                         SEC. The contract required the work be performed in accordance with gener-               not affect the payout.
                    Financial &                                                                                                                                                          being considered by Facilities Manage-         puters home at the end of their
             Operational Audits                          ally accepted government auditing standards. Our monitoring of this work             _  The payout percentages were            ment in its space-reduction plans. Any         workday in the event an emergen-
                                                         disclosed no instances where Ernst & Young did not comply, in all material               mathematically accurate after                                                         cy occurs and they are unable to
                                                                                                                                                                                         decisions made would require buy-in
                                                         respects, with generally accepted government auditing standards.                         noted exceptions were corrected.                                                      move to the alternative location.
         During this semiannual                                                                                                                                                          from management. In addition, should
                                                                                                                                                                                                                                    The Chief Administrative Officer
                                                                                                                                              SOX Testing Identifies                     the number of concurrent remote users
         period, we completed                             udit of TVA’s Restatement of FY 2007 and 2006
                                                         A                                                                                    Improvement Areas                                                                     (CAO) and Executive Vice President
                                                                                                                                                                                         increase, TVA may need to increase its
         two audits related to our monitoring            Financial Statements Complied with Standards                                         We completed testing of 56 control                                                    (EVP), Administrative Services, agreed
                                                                                                                                                                                         remote access capabilities.
t        of TVA’s external auditor; performed        TVA contracted with the independent certified                                                                                                                                  to work with other TVA organizations                 t
                                                                                                                                              activities within 21 key TVA business
v        agreed-upon procedures related to           public accounting firm of PricewaterhouseCoo-                                                                                       We also reviewed TVA’s COOP and            to determine which jobs and func-                    v
                                                                                                                                              processes designated by TVA’s Financial
a        TVA’s 2008 Winning Performance;             pers LLP (PricewaterhouseCoopers) to audit the                                                                                      Pandemic plan and determined both          tions in TVA are conducive to telework.              a
                                                                                                                                              Compliance & Regulatory Controls
         tested financial reporting controls for     restated balance sheets and the related statements                                                                                  adequately included the use of tele-       Upon completion of that assessment,
                                                                                                                                              Group as requiring supplemental test-
24       various business processes to assist with   of income, changes in proprietary capital, and cash                                                                                 work in those programs. However,           the CAO and EVP, Administrative                      25
                                                                                                                                              ing for SOX compliance purposes. We
         TVA’s initiative to comply with SOX;        flows as of September 30, 2007, and 2006, and the                                                                                   the COOP does not require essential        Services, will take appropriate actions
o                                                                                                                                             noted that 45 of the controls were op-                                                                                                     o
         and conducted one operational audit         results of its operations and cash flows for each of                                                                                employees to take their laptop com-        regarding our other recommendations.
i                                                                                                                                             erating effectively, eight controls were                                                                                                   i
         related to telework. Highlights of these    the three years in the period ended September 30,                                                                                   puters home in the evenings to ensure
g                                                                                                                                             not operating as intended, and three                                                                                                       g
         projects follow.                            2007. The contract required the audit be done in                                                                                    continuity of operations in the event
                                                                                                                                              were not tested because no events oc-
                                                     accordance with generally accepted government                                                                                       they are unable to move to the alternate
                                                                                                                                              curred to trigger the associated control
                                                     auditing standards. Our monitoring of this work                                                                                     location during an emergency.
                                                                                                                                              in the relevant period.
                                                     disclosed no instances where PricewaterhouseCoopers did not comply, in all mate-
                                                     rial respects, with generally accepted government auditing standards.


     S e m i a n n u a l R e p o r t | C h a l l e n g i n g T i m e s                                                                                                                                         S e m i a n n u a l R e p o r t   |   C h a l l e n g i n g   T i m e s
         Contract Audits                                have committed a civil or criminal
                                                        offense.
                                                                                               Contract Compliance                           Nuclear Engineering                         paying $343,548 in excessive paid time       Other Projects
         “During this period of economic un-                                                   Audits                                        Services                                    off costs for certain contractor personnel   During this reporting period, we also
         certainty, it is more important than           
                                                    _ TVA does not have a formal pro-
                                                        cess for internally identifying
                                                                                               We completed audits on $350 million           We audited the costs billed to TVA          assigned to the BFN Unit 1 project.          provided: (1) advice to Procurement
         ever that we provide an objective                                                     of contract expenditures and found            by a contractor for providing profes-
                                                        vendors that have been found un-                                                                                                 The contractor subsequently credited         regarding commercial terms on several
         analysis of the contract dollars being
         spent by TVA.”                                 satisfactory within TVA. The lack of   potential overbillings and waste of up        sional engineering and technical sup-                                                    planned contract awards; (2) litigation
                                                                                                                                                                                         or agreed to reimburse TVA $284,000,
                                                        such a process could result in TVA     to approximately $1.2 million during          port services associated with the restart
             David P. Wheeler                                                                                                                                                            including $254,700 of the overbilled         support services to TVA’s Office of the
                                                         not being aware of problems it has
                                                         had with vendors prior to award-      this semiannual period.                       of Browns Ferry Nuclear Plant (BFN)                                                      General Counsel regarding a claim filed
                      Director                                                                                                                                                           costs and $29,300 related to the exces-
                Contract Audits                          ing contracts to them.                                                              Unit 1.  Our audit, which included                                                       against TVA by a coal vendor; and (3)
                                                                                                                                                                                         sive paid time off costs.
                                                         We recommended TVA Procure-           Medical Benefits Plan                         $110 million of payments TVA made to                                                     litigation support services for the Unit-
                                                                                               Administrator
                                                         ment develop written procedures                                                     the contractor from June 2004 through       Asbestos Abatement                           ed States Attorney’s Office regarding an
                                                         detailing its vendor debarment        We audited $211.6 million of costs billed     October 2007, found the contractor          Services
         Review of                                                                             to TVA by a contractor from January 1,
                                                                                                                                                                                                                                      investigation of unrecorded and lost-
         TVA’s Vendor                                    process. In addition, TVA should                                                    had overbilled or not credited TVA an       We audited $25.24 million of costs billed    time injuries by a TVA contractor. n
                                                                                               2006, through December 31, 2007, for the
         Debarment                                       improve its process by requiring                                                    estimated $276,484 for: (1) home of-        to TVA by a contractor for subcontract
         and Suspension Process                     more verification of the debarment sta-    administration of TVA’s medical benefit       fice labor and related costs that should    services between September 30, 2002,
         We reviewed TVA’s process for ensur-       tus of contractors and subcontractors      program and found TVA had potentially         have been covered by the contractor’s       and December 31, 2007.  The subcon-
         ing it does not knowingly contract with    as prescribed by the Federal Acquisi-      been overbilled an estimated $473,024.        overhead rate; (2) certain miscellaneous    tractors provided personnel to perform
         vendors that have been: (1) debarred or    tion Regulations, including certifica-     The overbilling included: (1) $327,513        labor costs and markups that were not       asbestos abatement and sampling, along
         suspended by the federal government        tions and notifications by contractors     in potentially duplicate line item charges;   allowable; (3) unspent employee recog-      with removal and installation of other
         and/or (2) found unsatisfactory within     regarding debarment and/or civil or        (2) $71,518 for unallowable procedures        nition costs; (4) home office computer      insulation material at TVA nuclear
         TVA. In summary, we determined:            criminal actions. TVA also should de-      and services; (3) $4,659 for claims that      and facility charges for some employees     plants and subsequently in support
                                                    velop a process for: (1) identifying TVA   exceeded plan limits; (4) $61,840 of audit    who did not meet the contract eligibility   of the BFN Unit 1 Recovery Project. 
         _ TVA does not have formal proce-                                                    recoveries that had not been credited to
             dures for ensuring TVA does not        vendors that should be on a “watchlist”                                                  requirements; and (5) overbilled provi-     In summary, we found that TVA had
             knowingly contract with vendors        based on certain serious offenses com-     TVA; and (5) $7,494 of miscalculated          sional payroll taxes and insurance.  Ad-    been overbilled $132,657 as a result of:
             that have been debarred or sus-                                                   claim payments. In addition, we found
                                                    mitted by the vendor and (2) reporting                                                   ditionally, we found that changes TVA       (1) craft labor costs that were not pro-
             pended by the federal government.                                                 TVA had been billed an additional $1
             However, Procurement requires its      any significant misconduct by contrac-                                                   made to the contract resulted in TVA        vided for or were in excess of TVA’s Proj-
             Contract Managers/Procurement          tors to the federal government.            million due to payment provisions the                                                                              ect Maintenance
             Agents to review the Excluded Par-                                                contractor had negotiated with some of                                                                             and Modifica-
             ties Listing System (EPLS), which      In response to our report, TVA Pro-        the providers in its preferred provider
             is the federal government’s data-                                                                                                                                                                    tion Agreement;
t                                                   curement stated it is developing online    organization network. These provisions,                                                                                                                                                    t
             base of debarred and suspended                                                                                                                                                                       (2) duplicate
v            vendors, before awarding contracts     documentation of its vendor debar-         referred to as stop loss provisions, effec-                                                                                                                                                v
                                                                                                                                                                                                                  billings for some
a            more than $100,000. Although           ment process and working with TVA’s        tively offset discounts TVA would have                                                                                                                                                     a
             we found TVA had not awarded                                                                                                                                                                         materials; and
                                                    Office of the General Counsel to:          otherwise received when providers’ costs
             contracts to vendors that were                                                                                                                                                                       (3) inaccurate
26           included in the EPLS during our        (1) determine that the best procedure      exceeded specified amounts.                                                                                                                                                                27
                                                                                                                                                                                                                  insurance cost
             review period (2005-2008), TVA’s       for ensuring the performance history
o                                                                                                                                                                                                                 adjustments.                                                            o
             process was not always followed        of contractors is appropriately commu-     TVA management generally agreed
i            and/or documented.                                                                with the audit findings and stated it                                                                              TVA manage-                                                             i
                                                    nicated with contracting personnel for
g        _  The Federal Acquisition Regula-
                                                    consideration in procurement actions;      planned to recover the overbilled costs                                                                            ment is reviewing                                                       g
             tions include certain requirements
                                                                                               with the exception of about $55,304 in                                                                             our findings to
             that, if implemented by TVA, could     and (2) assess the appropriate methods
             improve TVA’s process and further                                                 costs billed for the treatment of eating                                                                           determine the ap-
                                                    to share information with other federal
             ensure that TVA does not do busi-                                                 disorders and certain claims that ex-                                                                              propriate action
             ness with contractors and sub-         agencies regarding contractor perfor-
                                                                                               ceeded plan limits.                           Browns Ferry                                                         to take.
             contractors that are debarred or       mance.


     S e m i a n n u a l R e p o r t | C h a l l e n g i n g T i m e s                                                                                                                                          S e m i a n n u a l R e p o r t   |   C h a l l e n g i n g   T i m e s
                                          “With increased challenges pertaining     Review of Contractor Qualifications for Bechtel
                                          to the Kingston Fossil Plant ash spill,   Employees Assigned to the Watts Bar Nuclear
                                          the economic downturn, potential envi-
                                          ronmental regulation, and rate regula-    Plant Unit Two Construction Project
                                          tion, Inspections works to provide as-    We reviewed the qualifications for contractor and subcontractor employees work-
                                          surance on TVA operational excellence,    ing on the WBN Unit 2 (U2) construction project. Our objective was to assess
                                          accountability, and transparency.”
                                                                                    the hiring process and determine if the contractor employees being hired met
                                              Gregory C. Jaynes                          the minimal qualifications for
                                                Deputy Assistant                         their designated labor category
                                              Inspector General,
                                                     Inspections                         (grades). In summary, we deter-
                                          	                                              mined:

                                                                                        _ TVA’s engineering, procure-
                                                                                             ment, and construction
                                                                                             contract with the contractor
                                                                                             does not include minimum
                                                                                             requirements for any of the
                                                                                             20 specified labor categories.
                                                                                             The contractor also does not
                                                                                             have corporate criteria speci-
                                                                                                                                   Watts Bar Nuclear Plant
                                                                                             fying minimum requirements
                                                                                             for any of the categories to
                                                                                             use as criteria for hiring at WBN U2. To establish the hiring require-
                                                                                             ments for positions at WBN U2, the contractor has relied on the job req-
                                                                                             uisition process. This has resulted in varying and inconsistent minimum
                                                                                             job position requirements.
                                                                                        
                                                                                    _ Requirements established through the requisitions process sometimes were
                                                                                        not met. For example, when we compared employee qualifications to require-
                                                                                        ments in the applicable job requisitions, we found that eight of the 56 in-
                                                                                        dividuals reviewed, or 14.3 percent, did not meet the requirements outlined
                                                                                        in the requisitions. However, when questioned, the contractor provided ex-
>> C h a l l e n g i n g T i m e s                                                      planations and asserted that all individuals are qualified for the work being
                                                                                        performed.
                                                                                    To address the issues cited in this report, we recommended TVA management:
                                                                                                                                                                                      t
                                                                                    1. Require that job requisitions include minimum requirements for each position
                                                                                                                                                                                      v
    Summary                          of                                             and that they be reviewed and approved by the contractor’s human resources per-
                                                                                    sonnel to ensure consistency among job classifications and eliminate errors.                      a

    Representative                                                                  2. Document the rationale for acceptance of any candidates that do not meet the                   29
                                                                                    minimum requirements, but are deemed qualified for the position.
                                                                                                                                                                                      o
    Inspections                                                                     3. Evaluate the qualifications of the employees that do not meet the qualifications               i
                                                                                    listed in their job requisitions and determine if they are qualified to perform their             g
                                                                                    assigned work.

                                                                                    4. Take steps to ensure resumes are thoroughly reviewed and identified discrepan-
                                                                                    cies are resolved prior to individuals being hired.

                                                                                    Management has completed actions which address our recommendations.


                                                                                                          S e m i a n n u a l   R e p o r t   |   C h a l l e n g i n g   T i m e s
         Contractor Tool Program                     ing TVA organizations. We                                                               TVA Purchasing Card Program
         for the Watts Bar                           reviewed 30 claims and found                                                            We reviewed TVA’s VISA purchasing card program to: (1) identify and assess the
         Nuclear Plant Unit Two                      that TVA’s WC program was                                                               operating effectiveness of controls over the program; and (2) determine if they
         Construction Project                        generally complying with ap-                                                            incorporate identified best practices. The charts below show trends in purchasing
         The objective of our review was to assess   plicable laws and regulations.                                                          card use over a 12-year horizon. The scope of the project covered all transactions
         the procedures and key control activi-      However, we did note the fol-                                                           from October 1, 2005, through December 31, 2007. Our review determined the
         ties used to track and account for tools    lowing when reviewing claim                                                             following:
         on the WBN U2 Construction Project.         documentation:
         Our review of the WBN U2 Project tool                                                                                               _ K ey internal controls were not functioning as intended with regard to:
                                                     _ O f the 30 claims re-           Watts Bar Nuclear Plant                                  (1) the review of purchasing card transactions and their supporting docu-
         program found: (1) nothing to indicate                                                                                                  mentation and (2) transaction limits.
                                                         viewed, 12 were disput-
         significant discrepancies in the tool           ed by TVA, and for two
         inventory at this time; (2) data entry          of these 12, the dispute letter was                                                     able in nature.
                                                                                                                                                                     
                                                                                                                                             _ Certain purchases were made that were disallowed by TVA policy or question-
                                                         not submitted within 30 days after      _ A ddressing the abundance of hear-
         errors in the Tool Hound System; (3)
                                                         the notice of injury as required by          ing loss claims.                                               
                                                                                                                                             _ TVA’s purchasing card program incorporates some best practices, but key best
                                                                                                                                                 practices are absent.
         opportunities to improve controls based         the Code of Federal Regulations         Management generally agreed with the
         on our review of the contractor’s Small         (CFR).
                                                                                                 findings and recommendations and has
                                                                                                                                                                     
                                                                                                                                             _ TVA employees were not reporting all instances of known or suspected
                                                                                                                                                 waste, fraud, and abuse or violation of law to the OIG as required by Busi-
         Tools and Small Capital Equipment               
                                                     _ One claim did not include the su-
                                                         pervisor’s signature on the form.       initiated or plans to initiate corrective       ness Practice 2.
         Procedure; and (4) some noncompli-
                                                                                                 action.                                     Management agreed with most findings and recommendations and has initiated
         ance with the contractor’s Small Tools          
                                                     _ There was one instance where the
                                                         claim was not submitted to the Of-                                                  or plans to initiate corrective action. n
         and Small Capital Equipment Procedure.          fice of Workers’ Compensation Pro-
         We recommended the contractor: (1)              grams (OWCP) within 10 business
         ensure accuracy of data entry in the Tool       days due to a supervisor not for-
                                                         warding his/her completed portion
         Hound system; (2) consider modifying            of the form within the allotted
         the contractor’s WBN U2 Project small           eight days as required by CFR and
         tool procedure to include the additional        Benefits Practice 9, respectively.
         control opportunities identified and the    The prescribed services for TVA’s WC
         value criteria for bulk items; (3) ensure   department and assigned site personnel
         compliance with the contractor’s Small      go beyond the Federal Employees’ Com-
         Tools and Small Capital Equipment Pro-      pensation Act WC requirements. How-                                                          History of Purchasing Card Transactions with                                                                                              TVA VISA Purchasing Card Transaction History
t        cedure; and (4) enhance controls over       ever, when we interviewed selected man-                                                        Transaction Amounts Greater than $5,000                                                                                                                                                                                                                                             t
                                                                                                                                                                                         35                                                                                                                                            90                                            180
v        inventory contained in unlocked sea/        agers, nurses, TVA site WC contacts, and                                                                                                                                          3,000                                                                                                                                                                                            v




                                                                                                                                              Dollar Value of Transactions Over $5,000




                                                                                                                                                                                                                                               Number of Transactions Greater Than $5,000




                                                                                                                                                                                                                                                                                                                                                                                           Number of Transactions Greater Than $5,000
                                                     other staff at seven TVA sites, we were




                                                                                                                                                                                                                                                                                               Dollar Value of Purchases($ Millions)
a                                                                                                                                                                                        30                                                                                                                                            80                                            160                                                a
         land containers. Management agreed                                                                                                                                                                                            2,500
         with our findings and has initiated or      told the WC program support could be                                                                                                                                                                                                                                              70
                                                                                                                                                                                         25
30                                                   improved. Areas cited included:                                                                                                                                                   2,000
                                                                                                                                                                                                                                                                                                                                                                                     140                                                31
         plans to initiate corrective action.                                                                                                                                                                                                                                                                                          60




                                                                                                                                                            ($ Millions)
                                                                                                                                                                                         20




                                                                                                                                                                                                                                                                                                                                                                                                          (Thousands)
o                                                    _ Increasing the expertise in the WC                                                                                                                                             1,500
                                                                                                                                                                                                                                                                                                                                                                                     120                                                o
i        TVA Worker’s                                    department, including the medical                                                                                               15
                                                                                                                                                                                                                                                                                                                                       50
                                                                                                                                                                                                                                                                                                                                                                                                                                        i
         Compensation Program                            knowledge of personnel.                                                                                                                                                       1,000                                                                                           40
                                                                                                                                                                                                                                                                                                                                                                                     100
g                                                                                                                                                                                        10                                                                                                                                                                                                                                             g
         We conducted a review of the TVA work-      _  Improving education and training
                                                                                                                                                                                                                                                                                                                                       30                                            80
         ers’ compensation (WC) program to de-           for personnel responsible for facili-                                                                                            5                                            500
                                                         tating the WC process at TVA sites.                                                                                                                                                                                                                                           20                                            60
         termine whether TVA’s WC program was:
         (1) complying with applicable laws and
                                                     _  Enhancing communications from                                                                                                    0
                                                                                                                                                                                              95 96 97 98 99 00 01 02 03 04 05 06 07
                                                                                                                                                                                                                                       0
                                                                                                                                                                                                                                                                                                                                            95 96 97 98 99 00 01 02 03 04 05 06 07
                                                         the WC department.
                                                                                                                                                                                                            Fiscal Year                                                                                                                                    Fiscal Year
         regulations and (2) adequately support-


     S e m i a n n u a l R e p o r t | C h a l l e n g i n g T i m e s                                                                                                                                                                                                                      S e m i a n n u a l R e p o r t                                      |   C h a l l e n g i n g                      T i m e s
                                          During the past six months, we             Civil Settlement for                        plements a Compliance and Ethics Pro-
                                          closed 91 cases. While our emphasis        $6.2 million Reached                        gram applicable to all work or service
                                          remains on major fraud investiga-          with Contractor                             provided to TVA and that SWCI fully
                                          tions, we have redirected the neces-       TVA contractor SWCI agreed to pay           complies with TVA’s policies and direc-
                                          sary resources to meet the challenges      $6.2 million to resolve a contract fraud    tives related to its contracts. This is the
                                          presented by recent environmental          investigation. SWCI, one of TVA’s           first Corporate Integrity and Monitor-
                                          events. Our cases resulted in 4 in-        largest contractors during the period       ing Agreement in TVA history between
                                          dictments; 3 convictions; more than        under review, provides maintenance          the OIG and a TVA contractor.
                                          $4.8 million in fines and restitution      and modification work at TVA’s nuclear
                                          orders; and a civil settlement of $6.2     power plants. The United States At-         Two Convicted on
                                          million. Our administrative cases          torney’s Office in Knoxville, Tennes-       Economic Development
                                                                                     see, working with TVA OIG and the
                                                                                                                                 Loan Fraud
                                          were referred to management, and
                                                                                                                                 Lloyd Aaron Smith and Neal Gordon
                                          responses were tracked. We have con-       Department of Justice in Washington
                                                                                                                                 Wall each pled guilty to bank fraud,
                                          tinued our support of and engage-          D.C., reached a settlement with SWCI
                                                                                                                                 mail fraud, and nine counts of money
                                          ment in an Environmental Crimes            as a result of a lengthy investigation
                                                                                                                                 laundering relating to the misuse of
                                          Task Force, an Electronic Crime Task       into alleged false claims and contract
                                                                                                                                 loan proceeds from loans obtained
                                          Force, a Health Care Fraud Task Force,     fraud against TVA. The settlement
                                                                                                                                 from TVA and the Citizens Bank of
                                          and two Regional Procurement Fraud         agreement addresses the contention by
                                                                                                                                 Hickman, Kentucky.  The two loans
                                          Working Groups. We hired a new Spe-        the United States that SWCI presented
                                                                                                                                 restricted the use of loan proceeds to
                                          cial Agent for our Nashville, Tennes-      false or fraudulent claims to TVA for
                                                                                                                                 expenditures related to the operation
                                          see office, and reallocated onboard        reimbursement in violation of the False
                                                                                                                                 of a textile plant that Smith and Wall
                                          support personnel to our Huntsville,       Claims Act for certain performance fee
                                                                                                                                 opened in Hickman, Kentucky.  De-
                                          Alabama office.                            bonuses SWCI claimed for meeting
                                                                                                                                 spite the restrictions, Smith and Wall
                                                                                     safety goals at the three TVA nuclear
                                          Actions in Criminal                        plants located in Alabama and Tennes-
                                                                                                                                 used approximately $134,000 of a $5
>> C h a l l e n g i n g T i m e s        Investigations -                           see. The false claims totaled nearly $3.1
                                                                                                                                 million Citizens Bank loan to pay off
                                          Convictions                                million. SWCI records understated the
                                                                                                                                 a debt owed on an unrelated business
                                          “The OIG is uniquely tasked with dis-      number and severity of work related
                                                                                                                                 venture using fraudulent invoices.  The
                                          tilling complex, interrelated issues and                                               two men also obtained a $500,000 loan               t
                                          providing objective, unbiased report-      injuries during the years 2004 through
                                                                                                                                 from TVA in November 2003 for the                   v
    Summary                          of   ing.  In difficult times like these, we
                                          are reminded of our commitment to
                                                                                     2006. The settlement provides that
                                                                                                                                 purchase of equipment at the Hick-
                                                                                     SWCI will pay the United States $6.2                                                            a
                                          independence.”                                                                         man Mills plant, but they diverted the
    Representative                            Paul B. Houston
                                                                                          million, the equivalent of double
                                                                                                                                 funds to pay an overdraft on an un-                 33
                                                                                          damages. Out of this settlement,
                                                 Special Agent in                                                                related business account.  Smith pled
                                                          Charge                          TVA will receive reimbursement of                                                          o
    Investigations                                Investigations                          the amount paid on the false claims
                                                                                                                                 guilty mid-trial in October 2008 and
                                                                                                                                                                                     i
                                                                                                                                 Wall pled guilty in November 2008. 
                                                                                          plus the cost of the investigation.                                                        g
                                                                                                                                 On February 11, 2009, Wall and Smith
                                                                                          In addition to payment of the $6.2
                                                                                                                                 both were sentenced in the U.S. District
                                                                                          million, SWCI has entered into a
                                                                                                                                 Court in Paducah, Kentucky.  Smith
                                                                                          comprehensive two-year Corporate
                                                                                                                                 received 30 months incarceration, and
                                                                                     Integrity and Monitoring Agreement
                                                                                                                                 Wall received 27 months incarcera-
                                                                                     with the OIG to ensure that SWCI im-


                                                                                                           S e m i a n n u a l R e p o r t   |   C h a l l e n g i n g   T i m e s
         tion.  They were jointly and severally     Heraeus Metal Processing,                 Administrative                              feet in the air on structural steel outside   nessee. The source com-
         ordered to pay restitution in the amount   Inc., Pleads Guilty                       Investigations                              of the Selective Catalytic Reduction          puter was assigned to
         of $420,733.37 directly to TVA and         Heraeus Corporation pleaded guilty        “TVA is facing the most difficult fi-       (SCR). According to plant personnel,          a TVA contractor. Our
         $4,104,562.51 to the Citizens Bank of      in January 2009 to a one-count Infor-     nancial and environmental challenges        this hangman’s noose had been hang-           investigation revealed
         Hickman or USDA, and assessed $1,100.      mation, charging it with making false     I have seen in 25 years.   Now, more        ing from the SCR since it was built           a Cyber Security con-
                                                                                              than ever, we must protect TVA’s as-
                                                    statements in and omitting informa-       sets.  By continuing to fight fraud and     more than four years ago. The noose           tractor performed work
         Criminal Actions                           tion from a document required to be       to prevent waste and abuse, the OIG         was removed. There was no indication          outside the scope of his
         in Environmental                           maintained pursuant to the Clean Air      can help TVA maintain the quality of        this noose was related to the noose           contract in conducting
                                                                                              life of the people in the Tennessee
         Violations                                 Act. The corporation was sentenced        Valley.”                                    found in September. As of March 31,           the port scan from an
                                                    to pay a $350,000 fine and serve 18                                                   2009, no information has been devel-          external Web site to an
         Operator of Tennessee                                                                  Nancy J. Holloway
         Wastewater Treatment                       months of probation. Heraeus Corpo-
                                                                                                     Special Agent in
                                                                                                                                          oped to identify the person(s) respon-        internal TVA computer.
         Plant Sentenced in Clean                   ration, located in Wartburg, Tennes-                      Charge                      sible for the hangman nooses.                 The contractor admit-
         Water Act Violation                        see, reclaims silver and other precious           Investigations
                                                                                                                                          In a separate matter, an alleged noose
                                                                                                                                                                                        ted that he was aware
         In November 2008, an operator at a         metals through the use of furnaces in a                                                                                             this was not within his
                                                                                                                                          was found at the WCF on the morning
         Tennessee wastewater treatment plant       high-temperature reclamation process.                                                                                               project role. However,           Allen Fossil Plant
                                                                                                                                          of August 22, 2008, by a TVA employee
         was sentenced to a term of 18 months       The resultant emissions are filtered                                                                                                this unauthorized di-
                                                                                                                                          performing a plant walk-down inspec-
         probation, 40 hours of community           using wet scrubbers. Environmen-                                                                                                    agnostic scan identified                    we became aware of other related be-
                                                                                                                                          tion of the A side pulverizer basement.
         service, and a $100 special assessment     tal Crimes Joint Task Force, Eastern                                                                                                issues for TVA to remediate. We recom- havior that required action by local
                                                                                                                                          While performing the inspection, he
         after he pled guilty to one felony count   District of Tennessee, initiated this     Hangman’s Noose                                                                           mended TVA review the contract to           law enforcement. TVA terminated the
                                                                                                                                          discovered a length of rope, approxi-
         under the Clean Water Act. The opera-      investigation based on allegations that   Investigations at                                                                         determine the relevance and necessity       contract with this individual, and a
         tor was sentenced in the United States     operating logs had been falsified and
                                                                                              Kingston Fossil Plant                       mately 30 feet in length, suspended from
                                                                                                                                                                                        of contactors having TVA log-on capa- personnel restriction was issued to re-
                                                                                              (KFP) and Widow’s Creek                     the catwalk, with a knot and loop at the
         District Court, Eastern District of Ten-   discovered that HCF had possibly vio-                                                                                               bility and their ability to operate inde-   quire review of this information before
                                                                                              Fossil Plant (WCF)                          end of the rope which had the possible
         nessee, in Knoxville, Tennessee. TVA       lated the Clean Water Act.                                                                                                          pendently of direct TVA supervision.        future employment. n
                                                                                              A hangman’s noose was found at              appearance of a hangman’s noose. TVA
         OIG special agents are members of                                                                                                                                              Additionally, we recommended TVA
                                                                                              KFP in September 2008, hanging ap-          Police was notified and responded, and
         the Environmental Crimes Joint Task                                                                                                                                            look further into this matter to deter-
                                                                                              proximately 20 feet from a stairway.        the rope was removed and confiscated.
         Force, Eastern District of Tennessee,                                                                                                                                          mine relevant IS security concerns and
                                                                                              In conjunction with TVA Police, in-         TVA HR reported the incident to the
         which initiated this investigation after                                                                                                                                       weaknesses of TVA systems. TVA has
                                                                                              terviews were conducted of witnesses        OIG. A detailed TVA OIG investigation
         an anonymous complaint was received                                                                                                                                            informed us that they took the neces-
t                                                                                             and individuals who might have been         determined that the rope was, in fact,                                                                                                        t
         alleging falsification of monthly op-                                                                                                                                          sary corrective actions.
v                                                                                             in the area of the location of the noose.   a tie-off rope used to suspend vacuum                                                                                                         v
         erating reports. The investigation was
                                                                                              TVA Fossil Power Group management           tubing for fly ash removal.
a
         worked jointly with EPA CID. The                                                                                                                                               Employment Restriction                                                                          a
                                                                                              issued a memorandum to KFP employ-                                                        Placed on Contractor
34
         complaint alleged the operator falsified
                                                                                              ees stating this behavior would not be      Port Scanning Incident                        for Threatening                                                                                 35
         reports specifically regarding the fecal
                                                                                              tolerated. In addition, TVA offered a       at Allen Fossil Plant                         Physical Violence at
o        coliform and chlorine tests for dis-                                                                                                                                                                                                                                           o
                                                                                              $5,000 reward for information leading       We received a report from TVA Man-            TVA Fossil Plant
i        charge that flowed into a creek ending                                                                                           agement regarding an incident of                                                                                                              i
                                                                                              to the confirmed positive identifica-                                                     We conducted an investigation into
g        in the Tennessee River, which is part of                                                                                         computer port scanning at a TVA facil-                                                                                                        g
                                                                                              tion of the person(s) responsible for                                                     the allegation that a mowing contrac-
         the TVA Watts Bar Watershed area. The                                                                                            ity. According to TVA’s Information           tor at TVA’s John Sevier Fossil Plant
                                                                                              the placement of the hangman’s noose.
         operator falsely indicated that the req-                                                                                         Services, an external port scan was con-      had threatened a TVA employee and
                                                                                              During this investigation, another
         uisite E. coli bacteria testing had been                                                                                         ducted on a source computer at Allen          plant personnel were concerned for
                                                                                              hangman’s noose was found by KFP
         performed when it had not.                                                                                                       Fossil Plant, located in Memphis, Ten-        their safety. During our investigation,
                                                                                              personnel hanging approximately 30


     S e m i a n n u a l R e p o r t | C h a l l e n g i n g T i m e s                                                                                                                                        S e m i a n n u a l R e p o r t   |   C h a l l e n g i n g   T i m e s
                                           The OIG in fulfilling its responsi-          H.R. 854 – Over-                            S.141 – Protecting
                                           bilities under the IG Act of 1978, as        Classification                              the Privacy of Social
                                           amended, follows and reviews existing        Reduction Act                               Security Numbers Act
                                           and proposed legislation and regula-         The stated purpose of this legislation      The thwarting of fraud, identity theft,
                                           tions that relate to the programs and        is to increase government-wide infor-       and stalking by placing additional con-
                                           operations of TVA. Although TVA’s            mation sharing and the availability of      straints on the access to social security
                                           Office of the General Counsel reviews        information to the public by applying       numbers is the goal of this piece of
                                           proposed or enacted legislation that         standards and practices to reduce im-       legislation. The act prohibits the sale
                                           could affect TVA activities, the OIG         proper classifications. This act requires   or display of social security numbers
                                           independently follows and reviews            the Inspector General of each federal       to the general public without an indi-
                                           proposed legislation that affects the        agency that employs an individual with      vidual’s consent. The bill also requires
                                           OIG and/or relates to economy and            original or derivative classification       government agencies to take steps to
                                           efficiency or waste, fraud, and abuse        authority to randomly audit classified      protect social security numbers from
                                           in TVA programs or operations.               information from each agency com-           being displayed or accessed. n
                                                                                        ponent with employees who have clas-
                                           Major pieces of legislation being fol-
                                                                                        sification authority, in order to assess
                                           lowed by the TVA OIG during the past
                                                                                        whether applicable classification poli-
                                           six months include:
                                                                                        cies, procedures, rules, and regulations
                                           H.R. 478 – Federal Agency                    have been followed.
                                           Performance Review
                                           and Efficiency Act                           H.R. 493 – Coal Ash
                                           This would amend the IG Act by adding
                                                                                        Reclamation, Environment
                                                                                        and Safety Act of 2009
                                           a requirement to make it the “principal
                                                                                        This act imposes uniform federal de-
                                           duty and responsibility” of IGs to con-
                                                                                        sign, engineering, and performance
                                           duct annual performance reviews of
>> C h a l l e n g i n g T i m e s                                                      standards on new coal ash impound-
                                           every agency program to identify which
                                                                                        ments; and directs the conduct of
                                           are inefficient, ineffective, duplicative,
                                                                                        an inventory of existing coal ash im-
                                           or mismanaged. Under the IG Act, IGs
                                                                                        poundments and the risks each poses                                                              t
                                           already have general, broad authority to
                                                                                        to groundwater, human health and the                                                             v
    Legislation                      and   recommend policies to promote econ-
                                                                                        environment. It also requires monitor-
                                           omy and efficiency and to recommend                                                                                                           a
                                                                                        ing and inspection regimes for both
    Regulations                            corrective action concerning “fraud, and
                                                                                        existing and future coal ash impound-                                                            37
                                           other serious problems, abuses, and de-
                                                                                        ments.
                                           ficiencies relating to the administration                                                                                                     o
                                           of agency programs and operations.”                                                                                                           i
                                           5 U.S.C. App. 3, § 4(a)(3) and (5). The                                                                                                       g
                                           Legislation Committee of the Council
                                           of the Inspectors General on Integrity
                                           and Efficiency is closely following this
                                           legislation and representing the IG com-
                                           munity on this matter.


                                                                                                               S e m i a n n u a l R e p o r t   |   C h a l l e n g i n g   T i m e s
                                     Appendix I
                                     Index On Reporting Requirements Under The IG Act
                                                 REPORTING                                              REQUIREMENT                                           PAGE

                                         Section 4(a)(2)               Review of Legislation and Regulations                                                  36-37

                                         Section 5(a)(1)               Significant Problems, Abuses, and Deficiencies                                         22-35

                                         Section 5(a)(2)               Recommendations with Respect to Significant Problems, Abuses, and Deficiencies         22-35

                                         Section 5(a)(3)               Recommendations Described in Previous Semiannual Reports in Which Corrective         Appendix V
                                                                       Action Has Not Been Completed
                                         Section 5(a)(4)               Matters Referred to Prosecutive Authorities and the Prosecutions and Convictions     Appendix IV
                                                                       That Have Resulted
                                         Section 5(a)(5) and 6(b)(2)   Summary of Instances Where Information was Refused                                      None

                                         Section 5(a)(6)               Listing of Audit and Inspection Reports                                              Appendix II

                                         Section 5(a)(7)               Summary of Particularly Significant Reports                                            22-35

                                         Section 5(a)(8)               Status of Management Decisions for Audit and Inspection Reports Containing          Appendix III
                                                                       Questioned Costs
                                         Section 5(a)(9)               Status of Management Decisions for Audit and Inspection Reports Containing Rec-     Appendix III
                                                                       ommendations That Funds Be Put to Better Use
                                         Section 5(a)(10)              Summary of Audit and Inspection Reports Issued Prior to the Beginning of the            None
                                                                       Reporting Period for Which No Management Decision Has Been Made
                                         Section 5(a)(11)              Significant Revised Management Decisions                                                None
>> C h a l l e n g i n g T i m e s
                                         Section 5(a)(12)              Significant Management Decisions with Which the Inspector General Disagreed             None

                                         Section 5(a)(13)              Information under Federal Financial Management Improvement Act of 1996                  None
                                                                                                                                                                                         t
                                                                                                                                                                                         v
    Appendices
                                                                                                                                                                                         a

                                                                                                                                                                                         39
                                                                                                                                                                                         o
                                                                                                                                                                                         i
                                                                                                                                                                                         g




                                                                                                          S e m i a n n u a l R e p o r t       |    C h a l l e n g i n g   T i m e s
                                                                                                                                                                                                                                   	


         Appendix II                                                                                                                              Appendix III
                                     Audit and Inspection Reports Issued — Audits                                                                                       Table I: Audits — Total Questioned and Unsupported Costs
            Report                                                                                                                 Funds to be                                                                                                         Number of         Questioned        Unsupported
          Number and                                                                                 Questioned    Unsupported    Put to Better                                                Audit Reports                                            Reports            Costs              Costs
             Date                                           Title                                      Costs          Costs            Use         A. For which no management decision has been made by the commencement of the period                           1           $ 110,429 1    $         0
                                                                            CONTRACT                                                               B. Which were issued during the reporting period                                                              3           1,225,713          421,957
          2007-11078    Bechtel Power Corporation                                                      $ 620,032      $ 343,548            $0      Subtotal (A+B)                                                                                                4           1,336,142          421,957
          11/21/2008
          2008-11504    Vulcan Insulation (Shook & Fletcher)-Subcontract with Stone & Webster            132,657        16,569              0      C. For which a management decision was made during the reporting period                                       4   2
                                                                                                                                                                                                                                                                             1,336,142          421,957
          11/21/2008    Construction, Inc.                                                                                                               1. Dollar value of disallowed costs                                                                     4             828,697          107,747
          2008-11985    TVA Vendor Debarment and Suspension Process                                           0              0              0            2. Dollar value of costs not disallowed                                                                 3             507,445          314,210
          02/19/2009
                                                                                                                                                   D. For which no management decision has been made by the end of the reporting period                          0                    0               0
          2008-11674    BlueCross BlueShield of Tennessee                                                473,024        61,840              0
          02/24/2009                                                                                                                               E. For which no management decision was made within six months of issuance                                    0                    0               0
                                                                    FINANCIAL/ OPERATIONAL                                                        1	
                                                                                                                                                       This amount has been restated from the prior semiannual report. The amount for which no management decision was made by the end of the
          2008-12062    Agreed-Upon Procedures for TVA Fiscal Year 2008 Performance Measures                 $0             $0             $0          reporting period was incorrectly reported in the prior semiannual report in this table as $1,193,194.
          10/24/2008                                                                                                                              2	
                                                                                                                                                       The total number of reports for which a management decision was made during the reporting period differs from the sum of C(1) and C(2) when the
                                                                                                                                                       same report(s) contain both recommendations agreed to by management and others not agreed to by management.
          2008-11942    TVA Telework Initiatives                                                              0              0              0
          11/20/2008
          2008-12076
          12/11/2008
                        Monitoring of PricewaterhouseCoopers’ Audit of the Restatement of TVA’s
                        Fiscal Years 2006 and 2007 Financial Statements
                                                                                                              0              0              0                      Table I: Inspections — Total Questioned and Unsupported Costs
          2008-11528    Monitoring of Ernst and Young’s Audit of TVA’s Fiscal Year 2008 Financial             0              0              0                                                                                                         Number Of          Questioned        Unsupported
          12/16/2008    Statements                                                                                                                                                             Audit Reports                                           Reports             Costs              Costs
          2008-12043    Sarbanes-Oxley 404 Testing – Business Processes                                       0              0              0      A. For which no management decision has been made by the commencement of the period                      0            $           0      $         0
          01/07/2009                                                                                                                               B. Which were issued during the reporting period                                                         0                        0                0
                                                                    INFORMATION TECHNOLOGY                                                         Subtotal (A+B)                                                                                           0                        0                0
          2008-11984    eFMS Application – SOX 404 Testing                                                   $0             $0             $0      C. For which a management decision was made during the reporting period                                  0                        0                0
          11/14/2008
                                                                                                                                                         1. Dollar value of disallowed costs                                                                0                        0                0
          2008-12034    Sarbanes-Oxley 404 Testing – IT General Controls and Application Excep-               0              0              0
          01/15/2009    tion Narratives                                                                                                                  2. Dollar value of costs not disallowed                                                            0                        0                0

          2008-11965    Contractor Workforce Management – Access and General Controls                         0              0              0      D. For which no management decision has been made by the end of the reporting period                     0                        0                0
          02/04/2009                                                                                                                               E. For which no management decision was made within six months of issuance                               0                        0                0
          2008-11714    Surplus and Disposal of Computer Equipment                                            0              0              0
          02/11/2009
t                                                                                                                                                                                                                                                                                                                 t
          2009-12402    IT Access Request System Pre-Implementation Evaluation                                0              0              0
v         03/25/2009                                                                                                                                                                                                                                                                                              v
a         TOTAL:        14                                                                           $ 1,225,713     $ 421,957            $0                                                                                                                                                                      a
                                 Audit and Inspection Reports Issued — Inspections
40                                                                                                                                                                                                                                                                                                                41
            Report                                                                                                                Funds To Be
          Number and                                                                                 Questioned    Unsupported    Put To Better
o            Date                                           Title                                      Costs          Costs            Use                                                                                                                                                                        o
i         2008-11591    Qualifications of Contractor Employees Assigned to Watts Bar Nuclear Plant           $0            $0              $0                                                                                                                                                                     i
          10/01/2008    Unit 2 Construction Project
g                                                                                                                                                                                                                                                                                                                 g
          2008-11911    Contractor Tool Program for Watts Bar Nuclear Plant Unit 2 Construction               0              0              0
          12/11/2008    Project
          2007-11481    TVA Purchasing Card Program                                                           0              0              0
          01/20/2009
          2007-11474    TVA Worker’s Compensation Program                                                     0              0              0
          03/02/2009
          TOTAL:        4                                                                                   $0             $0             $0


     S e m i a n n u a l R e p o r t | C h a l l e n g i n g T i m e s                                                                                                                                                           S e m i a n n u a l R e p o r t         |    C h a l l e n g i n g   T i m e s
         Appendix III (Continued)                                                                                               Appendix V
                                       Table II: Audits — Funds to be Put to Better Use                                                      Audit And Inspection Reports With Corrective Actions Pending
                                                                                                             Funds To Be        As of the end of the semiannual period, final corrective actions associated with one audit and three inspections were not
                                                                                                 Number Of   Put To Better
                                                         Audit Reports                            Reports         Use           completed within one year of the final report date. The report number and date, along with a brief description of the open
          A. For which no management decision has been made by the commencement of the period        0        $        0        recommendation(s) and target completion date for final action where available, are presented below.
          B. Which were issued during the reporting period                                           0                 0
                                                                                                                                 Audit Report
          Subtotal (A+B)                                                                             0                 0         Number and
                                                                                                                                    Date                           Report Title And Recommendation(s) For Which Final Action Is Not Complete
          C. For which a management decision was made during the reporting period                    0                 0
                                                                                                                                2007-11348-01
             1. Dollar value of recommendations agreed to by management                              0                 0        03/26/2008       IT Security Organizational Effectiveness
             2. Dollar value of recommendations not agreed to by management                          0                 0                         Recommendations were made for the improvement of strategy, planning and coordination, organization design, staffing and de-
          D. For which no management decision has been made by the end of the reporting period       0                 0                         velopment, policies, and performance measurement. TVA management agreed with the OIG findings and has completed actions
                                                                                                                                                 on the strategy aspect of the recommendations. Management is in the process of implementing program and organizational
          E. For which no management decision was made within six months of issuance                 0                 0                         improvements, and action plans are scheduled for completion by June 30, 2009.

                                                                                                                                   Inspection
                                  Table II: Inspections — Funds to be Put to Better Use                                              Report
                                                                                                                                  Number And
                                                                                                             Funds To Be              Date                         Report Title And Recommendation(s) For Which Final Action Is Not Complete
                                                                                                 Number Of   Put To Better
                                                         Audit Reports                            Reports         Use           2005-518I
                                                                                                                                08/31/2005       Physical and Environmental Controls for the Chattanooga Data Center
          A. For which no management decision has been made by the commencement of the period        0        $        0
                                                                                                                                                 The voice communication project was delayed by the Information Systems (IS) organization due to other projects of higher
          B. Which were issued during the reporting period                                           0                 0                         priority impacting the organization’s schedule. According to IS, project approval has been obtained and work has started to
                                                                                                                                                 assess the current infrastructure as it relates to the voice communication system and the appropriate direction for future imple-
          Subtotal (A+B)                                                                             0                 0                         mentations. This work should be completed in three months. Once the plan is complete, a firm date for final action will be
          C. For which a management decision was made during the reporting period                    0                 0                         determined. However, the best estimate for completion of final action at this time is December 2010.
             1. Dollar value of recommendations agreed to by management                              0                 0        2005-522I
                                                                                                                                06/13/2006       TVA’s Role as a Regulator
             2. Dollar value of recommendations not agreed to by management                          0                 0
                                                                                                                                                 We recommended the Chief Financial Officer: (1) continue to evaluate TVA’s role as regulator as the issues of deregulation and
          D. For which no management decision has been made by the end of the reporting period       0                 0                         customer choice evolve; (2) formalize procedures to ensure consistent review of (a) distributor financial information, including
          E. For which no management decision was made within six months of issuance                 0                 0                         whether additional guidance should be developed to ensure the public interest of low rates is achieved, and (b) business plans
                                                                                                                                                 which propose the use of electric system revenues for non-electric system purposes; and (3) ensure that contract modifications
                                                                                                                                                 are executed for any distributors approved to use electric system revenues for nonelectric system purposes. Management in
                                                                                                                                                 collaboration with the Board is addressing the findings in the report and developing corrective action. A TVA Regulatory Com-
                                                                                                                                                 mittee comprised of officers of the company has been established to implement corrective actions. The TVA Board is keenly
         Appendix IV                                                                                                            2006-513I
                                                                                                                                                 interested in this topic and has requested and received additional information on TVA regulatory authority and scope.

t                                                                                                                                                                                                                                                                                          t
                                     Investigative Referrals And Prosecutive Results                                            09/14/2006       TVA’s Succession Planning
v                                                                                                                                                We recommended TVA management ensure complete implementation of the Knowledge Retention Initiative, which supports                        v
          Referrals                                                                                                                              compliance with and the success of the Integrated Staffing Plan Principle and emphasizes the importance of pipeline hiring to
a                                                                                                                                                move TVA more towards being a developmentally oriented business. TVA management is currently reviewing this inspection and                a
          Subjects Referred to U.S. Attorneys                                                                              18                    actions already taken in response to the report to determine what, if any, additional actions are warranted. Management said it
          Subjects Referred to State/Local Authorities                                                                     1                     will soon provide additional information regarding this recommendation.
42                                                                                                                                                                                                                                                                                         43
          Results
o         Subject Indicted                                                                                                 4                                                                                                                                                               o
i         Subjects Convicted                                                                                               3                                                                                                                                                               i
          Referrals Declined                                                                                               10
g                                                                                                                                                                                                                                                                                          g




     S e m i a n n u a l R e p o r t | C h a l l e n g i n g T i m e s                                                                                                                                    S e m i a n n u a l R e p o r t        |   C h a l l e n g i n g     T i m e s
         Appendix VI                                                                                                                                         Glossary                                                         Abbreviations
                                                                                         Mar 31,         Sept 30,     Mar 31,     Sept 30,     Mar 31,       Disallowed Cost                                                  and Acronyms
                                                                                          2009            2008         2008        2007         2007         A questioned cost that management, in a management deci-         The following are acronyms and abbreviations widely used
             Audits                                                                                                                                          sion, has sustained or agreed should not be charged to the       in this report.
             Audits In Progress
             Carried Forward                                                                     28            47           35          36           16
                                                                                                                                                             agency.                                                           BFN............................................ Browns Ferry Nuclear Plant
             Started                                                                             59            53           52          72           42                                                                        CAO.......................................... Chief Administrative Officer
             Canceled                                                                            (3)           (2)          (2)         (7)          (4)     Final Action                                                      CFO...................................................Chief Financial Officer
             Completed                                                                          (14)          (70)         (38)        (66)         (18)     The completion of all management actions, as described in
             In Progress At End Of Reporting Period                                              70            28           47          35           36                                                                        CFR...........................................Code of Federal Regulations
                                                                                                                                                             a management decision, with respect to audit findings and
                                                                                                                                                                                                                               COOP...................................... Continuity of Operations Plan
             AUDIT RESULTS (THOUSANDS)                                                                                                                       recommendations. When management concludes no action
                                                                                                                                                                                                                               CID....................................... Criminal Investigation Division
             Questioned Costs                                                               $1,226         $3,609         $774       $4,635      $1,252      is necessary, final action occurs when a management deci-
             Disallowed By TVA                                                                 829          1,802          370        3,324       1,429                                                                        E&Y.......................................................Ernst & Young, LLP
                                                                                                                                                             sion is made.
             Recovered By TVA                                                                  644            676        3,339        1,274         695                                                                        EPA................................... Environmental Protection Agency

             Funds To Be Put To Better Use                                                       $0       $28,653     $100,990          $19      $8,913      Funds Put To Better Use                                           EVP.............................................. Executive Vice President

             Agreed To By TVA                                                                     0        28,120       53,987        8,529       4,534      Funds, which the OIG has disclosed in an audit report,            FY.................................................................... Fiscal Year
             Realized By TVA                                                                      0        26,460       53,987          948       3,603      that could be used more efficiently by reducing outlays,          IG.......................................................... Inspector General
                                                                                                                                                             deobligating program or operational funds, avoiding unnec-        IG Act.................. Inspector General Act Amendments of 1988
             OTHER AUDIT-RELATED PROJECTS
             Completed                                                                            8             7           6           17           12      essary expenditures, or taking other efficiency measures.         IS...................................................... Information Services
             Cost Savings Identified/Realized (Thousands)                                        $0            $0          $0           $0         $103                                                                        IT.................................................. Information Technology
                                                                                                                                                             Management Decision                                               KFP....................................................Kingston Fossil Plant
             INSPECTIONS                                                                                                                                     The evaluation by management of the audit findings and
             Completed                                                                            4            16           8           16            7                                                                        OIG.......................................Office of the Inspector General
             Cost Savings Identified/Realized (Thousands)                                        $0            $0          $0          $15          $15
                                                                                                                                                             recommendations and the issuance of a final decision by
                                                                                                                                                                                                                               OWCP .....................Office of Workers’ Compensation Programs
             Investigations1                                                                                                                                 management concerning its response to such findings and
                                                                                                                                                                                                                               SCR.........................................Selective Catalytic Reduction
             INVESTIGATION CASELOAD                                                                                                                          recommendations.
             Opened                                                                             171           161         155          113           73                                                                        SEC............................... Securities and Exchange Commission
             Closed                                                                              91           135         121          121           50
                                                                                                                                                             Questioned Cost                                                   SOX................ Section 404 of the Sarbanes-Oxley Act of 2002
             In Progress At End Of Reporting Period                                             280           200         174          140 2        148 2
                                                                                                                                                             A cost the IG questions because: (1) of an alleged violation      SWCI.............................. Stone & Webster Construction, Inc.
t            INVESTIGATIVE RESULTS (Thousands)                                                                                                               of a law, regulation, contract, cooperative agreement, or oth-    TVA............................................Tennessee Valley Authority                        t
v            Recoveries                                                                    $10,725.3         $632.6    $25,262         $27         $332      er document governing the expenditure of funds; (2) such          WBN U2................................ Watts Bar Nuclear Plant Unit 2                            v
             Savings                                                                             0              0        4,137         575           88
a                                                                                                                                                            cost is not supported by adequate documentation; or (3) the       WC.................................................. Workers’ Compensation                       a
             Fines/Penalties                                                                   352.7            1.6        206           1           10
                                                                                                                                                             expenditure of funds for the intended purposes was unnec-         WCF............................................. Widows Creek Fossil Plant
44           MANAGEMENT ACTIONS                                                                                                                              essary or unreasonable.                                                                                                                                            45
             Disciplinary Actions Taken (# Of Subjects)                                           3            15           9            8               4
o                                                                                                                                                                                                                                                                                                                               o
i
             Counseling/Management Techniques Employed (# Of Cases)                               1             6          16            3               7
                                                                                                                                                             Unsupported Costs                                                                                                                                                  i
             PROSECUTIVE ACTIVITIES (# Of Subjects)                                                                                                          A cost that is questioned because of the lack of adequate
g                                                                                                                                                                                                                                                                                                                               g
             Referred To U.S. Attorneys                                                          18             7          19            5               6   documentation at the time of the audit.
             Indicted                                                                             4            14           4            6               2
             Convicted                                                                            3             3           3            2               2
         1
             These numbers include task force activities and joint investigations with other agencies.
         2
             Adjusted from previous semiannual report.




     S e m i a n n u a l R e p o r t | C h a l l e n g i n g T i m e s                                                                                                                                                        S e m i a n n u a l R e p o r t                 |    C h a l l e n g i n g            T i m e s
                  Leadership Philosophy                                          Tennessee Valley Authority
         The TVA OIG strives to be a high performing organiza-                 Office Of The Inspector General
         tion made up of dedicated individuals who are empowered,
                                                                               The OIG is an independent organization charged with con-
         motivated, competent, and committed to producing high-
                                                                               ducting audits, inspections, and investigations relating to
         quality work that improves TVA and life in the Valley.
                                                                               TVA programs and operations, while keeping the TVA Board
         Each of us has important leadership, management, team,                and Congress fully and currently informed about problems
         and technical roles. We value integrity, people, open commu-          and deficiencies relating to the administration of such pro-
         nication, expansion of knowledge and skills, creative prob-           grams and operations.
         lem solving and collaborative decision making. n
                                                                               The OIG focuses on: (1) making TVA’s programs and opera-
                                                                               tions more effective and efficient; (2) preventing, identifying,
                                                                               and eliminating waste, fraud, and abuse and violations of
                               Web Page                                        laws, rules, or regulations; and (3) promoting integrity in
         We invite you to take a tour of our Web site at www.oig.tva.          financial reporting.
         gov. From this site you can sign up for automatic notifica-           If you would like to report to the OIG any concerns about
         tion when new audits or inspections are posted. You also will         fraud, waste, or abuse involving TVA programs or violations
         find a news release section with the latest OIG information           of TVA’s Code of Conduct, you should contact the OIG
         released to the media.                                                Empowerline system.   The Empowerline is administered by
         Come visit us at www.oig.tva.gov. n                                   a third-party contractor and can be reached 24 hours a day,
                                                                               seven days a week, either by a toll-free phone call (1-877-
                                                                               866-7840) or over the Web (www.oigempowerline.com).  
                                                                               You may report your concerns anonymously or you may
                                                                               request confidentiality. 

                                                                               Report concerns to the OIG Empowerline. n



t
v
a

46                                                                                       A confidential connection for reporting fraud,
                                                                                                 waste or abuse affecting TVA.
o
                                                                                        www.OIGempowerline.com
i                                                                                            1-877-866-7840
g                                                                                       EmPowerline™ is sponsored by the Office of the Inspector General
                                                                                                      and operates independently of TVA.




     S e m i a n n u a l R e p o r t   |   C h a l l e n g i n g   T i m e s
  Tennessee Valley Authority
Office Of The Inspector General
     400 West Summit Hill Drive
     Knoxville, Tennessee 37902
